<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   INTERIOR, ENVIRONMENT, AND RELATED 

                    AGENCIES APPROPRIATIONS FOR 2011 

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                   JAMES P. MORAN, Virginia, Chairman
 NORMAN D. DICKS, Washington                 MICHAEL K. SIMPSON, Idaho
 ALAN B. MOLLOHAN, West Virginia             KEN CALVERT, California
 BEN CHANDLER, Kentucky                      STEVEN C. LaTOURETTE, Ohio
 MAURICE D. HINCHEY, New York                TOM COLE, Oklahoma
 BETTY McCOLLUM, Minnesota
 JOHN W. OLVER, Massachusetts
 ED PASTOR, Arizona                 

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Delia Scott, Christopher Topik, Julie Falkner,
                      Jason Gray, and Brendan Lilly
                            Staff Assistants

                                ________

                                 PART 8

   BP-TRANSOCEAN DEEPWATER HORIZON OIL DISASTER: ONGOING RESPONSE AND 
                         ENVIRONMENTAL IMPACTS

                                   S

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 61-790                     WASHINGTON : 2010


















                       COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman
 NORMAN D. DICKS, Washington               JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia           C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                        HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana               FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                   JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York                 RODNEY P. FRELINGHUYSEN, New   
 ROSA L. DeLAURO, Connecticut                Jersey
 JAMES P. MORAN, Virginia                  TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts              ZACH WAMP, Tennessee
 ED PASTOR, Arizona                        TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina            ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                       JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island          KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York              MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California         JOHN ABNEY CULBERSON, Texas
 SAM FARR, California                      MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois           ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan           DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                       JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania                RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey             KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia           JO BONNER, Alabama
 MARION BERRY, Arkansas                    STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California                   TOM COLE, Oklahoma
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
   Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado
 PATRICK J. MURPHY, Pennsylvania    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


  INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2011

                              ----------                              

                                            Thursday, May 27, 2010.

  BP-TRANSOCEAN DEEPWATER HORIZON OIL DISASTER: ONGOING RESPONSE AND 
                         ENVIRONMENTAL IMPACTS

                               WITNESSES

HON. KEN SALAZAR, SECRETARY, U.S. DEPARTMENT OF THE INTERIOR
DAVID HAYES, DEPUTY SECRETARY, U.S. DEPARTMENT OF THE INTERIOR

                  Opening Statement of Chairman Moran

    Mr. Moran. Secretary Salazar, thank you for joining us this 
morning on an issue that is on everyone's minds, and we need to 
know what is on your mind.
    I guess I should ask you, are you having fun yet? I know 
this has been a very difficult time for you. And there have 
been so many hearings, that you get to the point where you 
almost wonder, is it just that--not so much a matter of 
everything being asked but has everyone asked it. We are going 
to try in this hearing to focus on those issues that may not 
have been fully explored that are particularly pertinent to the 
Interior Appropriations process and our funding 
responsibilities.
    It is nice to see Mr. Hayes here, as well, David.
    I want to say at the outset that there should be no 
question but that you are not responsible for what happened in 
the gulf oil spill, nor do I think any of the decision-makers 
within this new administration are responsible. That is just a 
reasonable assessment.
    But you will be responsible for how we go forward. You will 
be responsible for ensuring that there will not be a repeat of 
this catastrophe. You are going to have to assure the Congress 
of that and, of course, the American people. I know you have 
the confidence of the President, that you will take the 
measures necessary to see to it that we can assume with 
confidence that this will never be repeated and that we will 
learn from all the factors that may have given rise to this 
catastrophe.
    I want to say, first and foremost, that our sympathies go 
out to the 11 families who lost their loved ones. We ought not 
get so carried away that we lose sight of the deepest tragedy, 
which occurred at the time of the explosion, and, of course, to 
all of the communities in the Gulf. They are bearing the burden 
of this tragedy now but perhaps to an even greater extent in 
the years to come, economically, socially, in every way.
    But this explosion was not an accident. An accident is a 
situation that occurs due to chance and where no one is to 
blame. I don't believe that that is what happened here. This 
explosion has shown us that there was a catastrophic failure of 
the systems--systems that we, perhaps naively, relied upon to 
protect workers, the surrounding communities, and our natural 
resources. In fact, worker safety and environmental concerns 
have taken a backseat to drilling deadlines.
    Now, there are a number of questions we are going to ask 
you, but let me continue laying out the context that I think is 
most appropriate.
    We understand deepwater drilling is an inherently risky 
business. But it is clear that, in recent years, we have spent 
more time, energy, and money figuring out how to get the oil 
than we did analyzing the impacts and preparing for disasters 
like the one we now face. And that is irresponsible. There 
should have been a balance, and there was an imbalance. And so 
we want assurances that that balance will now be established.
    This week, one senior scientist at the Minerals Management 
Service was quoted, and he felt it was necessary to be 
anonymous, but he said,``You have people in the MMS with a very 
pro-development ideology guiding and making decisions about 
environmental analysis, concluding that there are no 
significant impacts when all the scientists think there are. 
These scientists were ignored.''
    Mr. Secretary, I do have confidence in your ability and in 
the collective ability of the people who work with you and in 
the administration to turn this around. But you are facing a 
cultural battle. The coziness and the reliance on industry for 
data, reports, and science took years to establish and, 
frankly, were borne out of what appears to be the relentless 
quest for oil off our shores.
    It is underscored by the fact that we are wholly reliant 
upon the industry to clean up the mess. We can observe, we can 
report, but we don't seem to be able to make the pertinent 
decisions, nor do we have the technology or the expertise, even 
if we do have the will, to address the spill, as some 
governments would have been able to, because we are wholly 
reliant upon BP in this situation.
    As the Acting Inspector General for Interior mentioned in 
her report this week, ``Of greatest concern to me is the 
environment in which these inspectors operate, particularly the 
ease with which they move between industry and government.''
    On page 2 of The Washington Post today, there was a quote 
in this article that said, ``More troubling than the 
infractions''--and this was a repetition of what the Inspector 
General has found out a year and a half ago. It was clear that 
the regulators were literally in bed with the oil industry, but 
most recently in Lake Charles, Louisiana, we have any number of 
gifts and things that were clearly inappropriate. In one case, 
an inspector, a regulator was negotiating a job with the very 
company while he was inspecting its facilities.
    But then it goes on to say, ``More troubling than the 
infractions, though''--and that is what is most troubling to 
this committee--``was the explanation given by the Minerals 
Management Service district manager: `Obviously, we are all oil 
industry,' he said. `Almost all of our inspectors have worked 
for oil companies out on these same platforms.' ''
    And that is the problem. We understand their mindset, but 
we have at least a dual responsibility to extract our natural 
resources, granted, but to protect our environment. And, again, 
that must be the focus.
    So deepwater drilling is inherently risky. As we have gone 
into deeper depths, greater risks have been taken. It is 
troubling, I have to say, that the firms that are doing this 
find every way to avoid paying U.S. Government taxes. That is 
another issue, and I won't digress into that, but it is just 
one more situation of rubbing salt into wounds.
    Now, with regard to the quantity of dispersants being 
applied in the gulf, it is unprecedented. And this committee is 
also concerned about that, because we are responsible for the 
Environmental Protection Agency. We know that over 800,000 
gallons of dispersants have now been applied, but we do not 
know what the long-term impact of these dispersants will be.
    And there are conflicting reports that at least one of the 
approved dispersants may contain a chemical that degrades into 
an endocrine disrupter, which would have very serious adverse 
impacts, even beyond what the oil was doing, to the fish and 
crustaceans and plant life.
    There are simply just too many unknowns. EPA made that 
clear, but it doesn't seem to have changed much in terms of the 
method of operating of BP. It is an unsustainable approach. We 
need to hear what you have done and will be doing to change 
this culture at the Minerals Management Service, particularly, 
and how your reforms will bring the science and the oversight 
that are absolutely necessary and have been wanting.
    We mentioned the need to extend the pause in issuing new 
drilling leases and permits. We do believe that we have to take 
the proper amount of time to investigate this explosion, 
develop process improvements, even change this culture at MMS, 
before the public can have confidence that we can proceed 
safely. And, really, the livelihoods of our coastal communities 
and the health of all of our natural resources along our shores 
is at stake.
    So we will be asking you specific questions as to what you 
and the President intend to do to give you the time necessary 
to ensure that it cannot happen again. I just saw a report on 
another rig called the Atlantis that they say could even be 
more catastrophic in deep drilling, and environmental waivers 
have been given for that as well.
    So that, I hope, will be the thrust of the hearing. And I 
know that this is a bipartisan concern. And so perhaps I will 
ask Mr. Simpson to share his thoughts and then the chairman of 
the full committee, Mr. Obey.
    Mr. Simpson.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Secretary, Deputy Secretary Hayes, let me begin by 
thanking you both for your determined efforts in response to 
the Deepwater Horizon explosion and oil spill. We are grateful 
to you, not only for your efforts to address this spill and 
determine its causes, but also for the hard work of the 
Department on many levels to keep members of my staff and 
Congress appraised of the situation on a daily basis. It is 
much appreciated.
    In fact, I am surprised you have time to go to the Gulf 
because there have been so many hearings in Congress. In fact, 
I understand there are five hearings today throughout Congress. 
I have a list of all the hearings that have been held by the 
different subcommittees. It seems like you are spending all 
your time up here rather than down in the Gulf. But that is 
kind of the way it goes. As the chairman said, everybody hasn't 
said everything yet, so we will have a hearing too.
    At the outset, let me be very clear that I am not here 
today to blame BP, the Secretary, MMS, or anyone else. The 
Washington blame game makes great headlines, but that isn't my 
purpose. It is probably safe to say that we will discover down 
the road that a number of parties are ultimately responsible 
for what has occurred. Frankly, I would like to learn more 
about the efforts to stop the oil spill, how best to mitigate 
any damage that has occurred, and how to prevent further 
damage.
    I also want to know what went wrong, how we can fix it, and 
determine what we can do to minimize the chances that an 
accident like this will happen again. That is the responsible 
thing to do, and it is the right thing to do. Unfortunately, a 
lot of the answers to those questions aren't known yet. We have 
to investigate this further, about exactly what went wrong.
    We all recognize that this is a major disaster, but we 
ought not to treat it, as some are attempting to do, as the 
death knell for offshore drilling. That would be a big mistake, 
and I think most people recognize that. If you have read any 
newspapers or watched TV over the last few weeks, you are aware 
that some of my colleagues are attempting to use this oil spill 
as an opportunity to prevent scheduled lease sales in the Gulf 
to occur this summer. Others see it as a reason to cease all 
exploration of production in the Gulf of Mexico. Others are 
hopeful that this spill will lead Congress or the 
administration to reinstate the moratoria on drilling in the 
entire Outer Continental Shelf. And still others are urging the 
President to delay exploration planned for this summer in the 
Arctic Ocean. While well-intentioned, I believe this thinking 
to be shortsighted and misguided.
    I support efforts to invest in a balanced, all-of-the-above 
energy portfolio that includes renewable energies, nuclear 
energy, as well as domestic sources of oil and gas. But the 
fact is that we are now and will continue to be for the 
foreseeable future a carbon-based society. Unless you drive an 
electric car, live in a solar-powered house, or have a windmill 
in your backyard, chances are that every day you will rely on 
oil and gas to drive your car, mow your lawn, turn on your 
lights, and generate the energy to heat and cool your home. 
This is not going to change significantly any time soon.
    Today, oil production in the Gulf of Mexico accounts for 
nearly one-third of all domestic U.S. crude oil production. 
Over the last 60 years, offshore oil and natural gas 
development has resulted in more than 42,000 wells being 
drilled safely, including more than 2,000 wells at depths of 
1,000 feet or more. We ought not to view this latest setback as 
a reason to retreat but as a chance to learn how we can more 
safely explore and produce the energy our country will need in 
the coming century.
    As tragic as this spill has been, it hasn't changed our 
country's growing demand for oil and natural gas. Exploration 
and production in the Gulf of Mexico and the OCS and especially 
in deepwater, where resources are more prevalent, will play an 
even more critical role in the future.
    Today, five countries--Canada, Mexico, Venezuela, Nigeria, 
and Saudi Arabia--account for nearly two-thirds of the crude 
oil imported into the United States. Venezuela, a country ruled 
by a dictator, Hugo Chavez, and a regime which most people 
consider to be less than friendly to our interests, exports 
more than 900,000 barrels of oil a day to our country. In spite 
of this, the majority of Americans still believe our country 
needs to do more to develop domestic sources of energy, both on 
shore and offshore, and lessen our dependence on foreign 
sources of oil and natural gas.
    Energy production is an inherently risky business. History 
reminds us that, while we can make every possible effort to 
mitigate risk, we can never fully eliminate it. The tragic 
death of 29 coal miners in West Virginia in April is not going 
to shut down our country's coal-mining industry. It is, 
however, resulting in a period of study and introspection to 
determine how to improve safety and avert future tragedies. 
This is a proper and reasonable response.
    By contrast, the accident at Three Mile Island in 1979 set 
our country back in the development of nuclear energy for a 
generation or more. The oil spill in the Gulf has the potential 
of having that same impact if we collectively wave the white 
flag, signaling retreat on offshore exploration and production.
    Therefore, there are many lessons to be learned from this 
experience: How do we adequately develop and test the 
technologies needed to shut down a well a mile beneath the 
ocean's surface in an emergency situation? What authority do 
Federal agencies have to make decisions about treating an oil 
spill in the midst of a crisis? What reforms are needed to 
ensure proper management controls are in place and safety 
inspections are completed properly? These and other questions 
need to be asked.
    I will close with this thought. Our decision-making on oil 
and gas exploration and production going forward should be 
guided by what we know and not by what we want to believe. 
Facts, not emotions, should be our guide.
    And, Mr. Secretary, I thank you again for being here today 
for this hearing, and I look forward to your testimony.
    Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Simpson.
    And I look forward to hearing from the chair of the full 
committee, David Obey.

                    Opening Remarks of Chairman Obey

    Mr. Obey. Mr. Secretary, good to see you.
    I am not quite sure what to say. This is really a sobering 
experience, or it ought to be a sobering experience, for each 
and every one of us. I have noticed through the years that very 
often on issues like this, the volume of comments from people 
are in inverse proportion to the information that they can 
bring to the subject. So I think, on an issue like this, we 
have a better chance of learning something if our ears are open 
rather than our mouths.
    But having said that, I would just have one observation. 
The gentleman has just mentioned what happened at Three Mile 
Island and how it set back nuclear power for a generation. I 
remember when we had the Santa Barbara oil spill. I remember 
the Exxon Valdez. And now we have this. I think what all of 
that demonstrates is that, no matter what level of effort you 
have, sooner or later either human beings or machines are going 
to fail in some capacity. And that means that you have to 
approach each and every issue with balance and not approach 
them as though we are all presidents of optimist clubs.
    I also think that it demonstrates that we are a prisoner of 
our past inertia. If you take a look at what we have done in 
terms of developing other sources of energy through the years, 
since Jimmy Carter left office we have had a more than two-and-
a-half-decade decline in the resources that have been put into 
either energy conservation or developing other energy sources. 
And because of that, we are left with the potential to have 
these kinds of problems whether we are talking about oil or 
talking about nuclear, as my friend has just reminded us.
    I recognize that this incident will be scrubbed ad nauseam 
until people find out exactly what happened and what, if any, 
breakdowns in the system occurred. But, in the last analysis, I 
would hope it would enlarge our understanding of the challenge 
ahead in terms of developing a very different energy policy.
    The oil spill is very visible. You can see it on TV every 
day, as that stuff comes out of the ocean floor. And so, people 
will, understandably, get excited and disturbed about it. You 
also see the evidence of that in terms of the harm that it will 
do to economic interests of various groups, such as the fishing 
industry.
    But we have a development just as serious every day which 
is not nearly as visible but is still as inexorable as the 
pumping of that oil out of the ocean bottom has been, and that 
is climate change. I mean, there is no question in my mind--
there may be in some others', but there is no question in my 
mind--that we have an acute problem in dealing with that issue, 
as well.
    So I would hope that, when we are through with this, that 
this experience can contribute to building a new determination 
on the part of everybody, regardless of philosophical bent, to 
take an entirely new look at the way we deal with energy in 
this country and globally, because it is the planet that 
sustains us all. And while the Gulf damage seems widespread 
and, indeed, it is horrifying in its massiveness, what is 
happening on global climate change is even broader and worse 
over time.
    So I would hope that all of us could take a non-ideological 
look at what the facts are and work on not just short-term 
fixes to correct the problem we are going to be talking about 
here today, but also to deal with the long-term implications of 
what otherwise will face us.
    Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Lewis, did you want to add anything?

                      Opening Remarks of Mr. Lewis

    Mr. Lewis. Thank you. Very briefly, Mr. Chairman.
    Secretary Salazar, thank you for being here very much.
    Endless hearings will not solve the problem, but I am 
hearing from staff that CNN is telling us this morning that it 
appears as though the Top Kill may very well be working. If 
that is the case, then the one question I have in mind involves 
the moratorium that has been suggested, a moratorium of six 
months for deepwater drilling.
    I would really like to know what your definition of that 
is, will that stop the regulatory process whereby leases can go 
forward, et cetera. As the chairman suggested, we are dependent 
upon this resource, whether we like it or not. And so if you 
would clarify that for the record, I would appreciate it.
    Mr. Moran. Thank you, Mr. Lewis.
    Mr. Salazar, if you would like to share with us whatever 
you want to extend as an opening statement. Mr. Secretary, 
again, we are very appreciative of your being here. And I 
should say that I am personally appreciative of your 
leadership. I do think you are the right person at the right 
time. But it is a very difficult time to be Secretary of the 
Department of Interior.
    So if you would like to proceed with a statement, and then 
we will have questions of you.

               Opening Statement of Secretary Ken Salazar

    Secretary Salazar. Thank you.
    Thank you very much, Chairman Moran, Chairman Obey and 
Chairman Dicks, Ranking Member Simpson, Lewis, and all the 
members of the Committee.
    In what is now the 37th day of what has been a very 
difficult time period, I remain very resolute and confident we 
will solve the problem in the Gulf. The issues you address in 
this committee this morning are issues we can grapple with and 
we will deal with in an effective manner.
    I have not taken a day off, not a half a day off, in 37 
days. I have spent 4 days in the command center in Houston, as 
I have watched the best minds of science from around the world 
figure out how you can shut this well down. I have spent time 
on the Gulf Coast, seeing the impacts and dealing with people 
in the Gulf Coast region about what is happening with respect 
to the landfall of oil.
    As I have dealt with all those issues, I have also dealt 
with issues within the Department of Interior that are critical 
to the future of the United States and critical to having the 
confidence of the American people in the functioning of its 
government.
    As I have dealt with these issues, I can tell this 
committee--and I know many of you well--that I, today, am very 
resolute and very confident that tomorrow is a better day. We 
will see our way through it in a way that will address the 
myriad of issues which you all raised, from the issue of a new 
energy frontier and climate change, Chairman Obey, which is 
critical to our world, to the issues of moving forward with a 
thoughtful policy concerning the development of our oil and gas 
resources in the Outer Continental Shelf, to issues relating to 
accountability and responsibility that we will see coming forth 
from the Presidential Reilly-Graham Commission and the multiple 
investigations that we have under way.
    My main point to you this morning is, yes, it is 
troublesome and it is a time where there is a great deal of 
concern. I can tell you, no one is more concerned about this 
than the President of the United States and me and the men and 
women who are responding to the issue in the Gulf and you, the 
Members of Congress, who are responsible for the policy 
framework.
    Let me say two or three things that I think you might be 
interested in.


                         response to oil spill


    First, in terms of the overall response, from April 20th to 
this day, it has been constant and it has been relentless. The 
day after the explosion on April 20th, which occurred at about 
10 o'clock that night, I directed Deputy Secretary, David 
Hayes, to go to the Gulf Coast without a change of underwear 
for the next day because I knew of the importance of this 
issue. I wanted to make sure that we were standing up the 
command centers in the right places to be able to deal with 
whatever might come, no matter how bad it would be. He has been 
involved from day one with the Coast Guard, which has 
responsibility for the response under our national framework, 
making sure that no effort is spared to deal with this problem.
    I have also spent the same amount of time and the same kind 
of energy in Washington, Houston, and on the Gulf Coast, 
dealing with this issue, as have the men and women of the 
Department of the Interior. You will hear shortly from 
Assistant Secretary Thomas Strickland, who has spent countless 
days on the Gulf dealing with the protection of the precious 
resources which are under the jurisdiction of this Committee 
and my command at the Department of Interior. That includes the 
40 national wildlife refuges and park units within the Gulf of 
Mexico region and making sure the best of our wildlife 
scientists are down there to address the issues with respect to 
our response. It has been a collective effort on the part of 
all involved within the Department of Interior.
    Secondly, this collective response and responsibility has 
been shared across the government. President Obama, from day 
one, has received daily briefings, regular updates on what is 
going on, and has pushed the government to do everything it can 
do. At his suggestion, Secretary Chu and I went to Houston to 
make sure the different solutions that were being worked on by 
BP were, in fact, the best solutions the best minds of science 
could come up with around the world. I assembled a group of 
industry leaders to make sure that they were also helping 
address the issue in Houston so we could essentially stop the 
pollution. Because until we stop the pollution, you have a 
problem that is undefinable.
    The latest report from Secretary Chu and those in the 
command center at BP this morning is that the effort on Top 
Kill continues. Whether it will work or not, Congressman Lewis, 
is still an unknown. It is a dynamic process.
    The first efforts that went forward yesterday were not 
successful. There are other efforts that are under way to try 
to deal with the Top Kill and to try to shut in this well. If 
those efforts fail today or tonight, we have made sure there 
are plan B's and plan C's and plan D's. What I can assure this 
Committee, on behalf of the constituency you represent and the 
American people, is that we have the best minds of the world 
focused on this problem.
     I appreciate the leadership of Secretary Chu; the 
leadership of Dr. Marcia McNutt, the Director of the U.S. 
Geological Survey, who I have deployed to Houston for the last 
3 weeks; the National Labs of the Department of Energy; all of 
whom have been involved, along with the United States Navy and 
a myriad of other Federal organizations.
    What we have seen on the coast, with respect to this spill, 
is the single largest response in the history of the world with 
respect to any kind of oil spill response.


                            ocs development


    Let me, secondly, address a question relative to OCS some 
of you raised as to how we will move forward with respect to 
development in the Outer Continental Shelf.
    We must be mindful and remind ourselves that about 30 
percent of the oil and gas resources produced domestically in 
the United States come from the Gulf of Mexico. We must also be 
mindful that over 35,000 wells have been drilled in the Gulf of 
Mexico over the last half century without having this kind of a 
horrific incident. While there have been blowouts, they have 
not been of this particular magnitude.
    We, as an Administration, believe we need to move forward 
with comprehensive energy and climate change legislation in the 
manner that Chairman Obey described. We view comprehensive 
energy legislation includes oil as part of the energy 
portfolio. The President will be making announcements shortly 
about how we plan on moving forward.
    I can assure you his direction to us is, as we move 
forward, we need to make sure it is being conducted in a safe 
manner and we take whatever steps are necessary to ensure this 
kind of horrific incident does not ever happen again. That is 
part of what we have already started to do, by sending 
proposals to this committee and to Congress for its 
consideration, including the $29 million request for the 
additional inspections that we need at the Department of the 
Interior.
    I want to take your questions, but let me just add one more 
thing. There is, I think, a collective responsibility here and 
it is important that we move forward in this process in a 
thoughtful way. Yes, we can point to Three Mile Island and the 
lessons from Three Mile Island. We can point to the Challenger 
and what happened with respect to the space shuttle program. In 
the heat of the moment, we want to make sure we are making 
thoughtful decisions about moving forward with the energy 
future of this Nation. We will know very specifically what it 
is that caused this particular explosion and blowout prevention 
mechanisms not to work on the Deepwater Horizon, and we will 
learn those lessons. Those lessons will include the United 
States Congress and the national policy, which I helped create 
as a U.S. Senator, as many of you helped create as Members of 
the U.S. House of Representatives, to look at what kinds of 
changes we need to make.
    It will include a change, which the President has already 
requested, the elimination of the 30-day mandate on the 
approval of an exploratory plan to allow for more rigorous 
environmental analysis.
    It will also include, I am hopeful, the effort which many 
of you in the House of Representatives have worked on, and 
which I have supported, and that is the creation of organic 
legislation for what has been known as the Minerals Management 
Service. An agency for the United States of America that has 
the responsibility of our offshore energy resources, which are 
so vast and so important, and, that collects on average about 
$13 billion a year, is one that should exist by virtue of 
congressional action and congressional statute. There have been 
efforts to try to get that done over the last year. We need to 
push the ``fast'' button and try to make sure that it gets 
done.


               minerals management service reorganization


    In the meantime, I have moved forward within my own 
authority as Secretary of Interior to reorganize the Department 
and to change the Minerals Management Service. The Minerals 
Management Service, consisting of 1,700 employees, will be 
changed in the following ways:
    First, about 700 people who currently are involved in 
revenue collection will be moved into an Office of Natural 
Resources Revenues, because there are other revenues that are 
collected within the Department of Interior. That agency will 
be separated from the Land and Minerals section of the 
Department of the Interior so there will be the avoidance of 
any perception of conflict of interest there.
    Secondly, the remaining part of what is MMS will be split 
into two agencies. One will be a Bureau of Ocean Energy 
Management. That agency will have the responsibility with 
respect to the development of renewable energy resources 
offshore, which I know many of you have been very interested 
in, especially in the Atlantic. It will also be responsible for 
the development of the conventional energy resources that we 
see, for example, in the Gulf of Mexico.
    The other agency will be a Bureau of Safety and 
Environmental Enforcement. That bureau will have the 
responsibility to act as the police, to make sure the 
appropriate standards are put into place and the policing of 
those standards actually occurs.
    As we move forward in the implementation of the Secretarial 
order, we must work closely with the members of this Committee, 
Chairman Moran, and the other members of the United States 
Congress that have an interest in this issue. The team I have 
assembled that has been working on this issue will, in fact, be 
working with all of you as we come forward to conclusion.
    So, with that, Mr. Chairman, I would be happy to take 
questions.
    [The written statement follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
               MINERALS MANAGEMENT SERVICE REORGANIZATION

    Mr. Moran. Thank you, Mr. Secretary.
    I was going to begin with another question, but since you 
raised the reorganization, let me start with that.
    I think I made it pretty clear in the opening statement 
that, at least in my view--I know it is not unique; it seems to 
be the view of most people who have looked at this situation--
see a cultural problem, a very deep-seated cultural problem 
within the Minerals Management Service.
    I don't for a moment personally blame Ms. Birnbaum because 
she is not part of that culture; she only just joined the 
Minerals Management Service. We had asked that she be here. It 
is your call who you want to be here. And I trust that no one, 
particularly people who are not directly responsible, are going 
to be scapegoated in this situation. Our interest is in getting 
to the heart of the problem.
    In this reorganization, the most important thing is that 
the environmental experts not be shunted aside. What has 
happened for the last several years is that they were treated 
almost as though they were the crazy paranoids in the attic 
that you could ignore or even dismiss in a cynical way. They 
had virtually no input. We want to put them back at the table. 
They don't necessarily have to be in the driver's seat, but 
given what has happened, it seems to me for a while they need 
to be in the driver's seat before any permits can be issued.
    Now, the procedural activity of collecting royalties, fine. 
But the issue is the people doing the permitting being able to 
act independently of the environmental scientists. And that is 
what needs to be corrected.
    You don't even need to respond to that. I trust that you 
understand that we are going to have to get into this 
reorganization because this Committee does have to approve and 
then fund it. We can discuss that further. You can build it 
into a response in another question, if you would like.

                            OCS DEVELOPMENT

    The news reports have been prolific and consistent as to 
what the administration is going to do today after this 
hearing. We hear six things: One, that you will delay the 5-
year oil leasing plan. As most people know, you can't drill 
unless it is part of a 5-year oil leasing plan. Two, you are 
going to suspend the Arctic Ocean drilling permits that have 
already been issued to Shell Oil for drilling this summer. 
Three, there will be at least a six-month pause in any further 
oil leasing. Four, you will stop the Virginia Sale of lease 220 
completely. Five, you will implement much more rigorous oil 
development regulations for oversight. And, six, you will 
suspend upcoming lease sales in the western Gulf of Mexico.
    I can understand if you don't want to trespass on the 
President's statement, but do you have anything to add to that 
or to comment about that? Because that is what we are reading, 
and I am sure you are reading the same thing. It is not as 
though it is classified information. Do you wish to comment, 
Mr. Secretary?
    Secretary Salazar. Let me comment on the items you raised. 
We had discussions late into the night, and they continue right 
now. Later in the day, the President will be making an 
announcement with respect to many of the issues which you 
raised.
    I think the driving principle, Chairman Moran, is that we 
need to make sure, if there is going to be deepwater drilling 
in the Outer Continental Shelf, that it is going to be done 
safely. There are a number of different considerations and 
issues that have to be dealt with as we move forward with that 
decision. We will share that information with you as soon as 
the decisions are finalized later this morning.

                             REFORMS OF MMS

    Let me comment on your opening question concerning the 
reform issues and Ms. Birnbaum. Liz Birnbaum has been a strong 
leader, and we have done tremendous work to essentially deal 
with what you and other members of this Committee raised as a 
culture of corruption and reprehensible conduct that existed at 
the Minerals Management Service. We have worked on it from day 
one.
    You, Chairman Moran, reading the latest Inspector General's 
report, will note all that conduct, even though most people 
here in Washington and most newspapers haven't focused on the 
dates, was all focused back in the prior Administration. Yes, 
it was a time when the oil and gas resources of this country 
essentially were allowed to be taken without the kind of review 
and the kind of protection of the natural resources that we 
needed to have.
    As Secretary of the Interior, I am proud of the reform 
efforts we have taken across the board. There are many reform 
efforts specific to MMS, and I won't go through a long, 
complete list of them, but let me just mention a few of them.
    Within the first two weeks of my swearing-in as Secretary 
of the Interior, I went to the Minerals Management Service in 
Lakewood, Colorado. We instituted a code of ethics, required a 
number of ethics training measures to be taken by employees, 
and announced we would have a zero-tolerance policy with 
respect to ethical failures. For those who have committed 
wrongs, they have been dealt with in the personnel system. For 
those who have committed criminal conduct, they have been 
referred over for criminal prosecution.
    This latest report from the Inspector General deals with a 
timeframe that is pre- the Obama Administration, and the same 
kind of action has been taken. Indeed, what we have done is ask 
the Inspector General, at my request, to look at whether or not 
these activities and this culture of corruption have continued 
after we instituted these actions at the beginning of this 
Administration. I very much look forward to that report, and we 
will see whether the efforts we have undertaken have, in fact, 
helped.

                        ROYALTY-IN-KIND PROGRAM

    But I didn't stop just with ethics. The Royalty-in-Kind 
program, which some of you on this Committee have been critical 
of for years--I terminated the Royalty-in-Kind program because 
it seemed to me, it was an area full of the possibility of the 
kinds of problems we see in that kind of culture. That was an 
important decision, but it was the correct decision as we move 
forward with our agenda on reform.

                                SCIENCE

    Finally, with respect to science, many of you, I hope, 
still remember when I came in as Secretary of the Interior 
there was a plan to do very aggressive development of oil and 
gas resources all over the entire OCS. I put a stop button on 
that for 180 days.
    When we announced our OCS plan, I said that in the Arctic, 
in the Beaufort and the Chukchi Seas in the north, we did not 
know enough of the science, nor did we know enough about the 
oil response capabilities, and that those leased sales would, 
in fact, be cancelled, and I cancelled them. In addition to 
that, that there were places that were too special to drill, 
including Bristol Bay in Alaska, and we took those things off 
the map.

                                REFORMS

    I look back at the last 15 or 16 months, and we have done a 
lot of reform in the Department, but in this area, there has 
been significant reform. Now, you can ask the question, is that 
enough reform? The answer is ``no.'' That is why we will 
continue to do what we have to do to make sure the house is 
cleaned up.
    Mr. Moran. I appreciate that.

                         PERMIT APPROVAL PERIOD

    We understand that one of the problems that you have had is 
that you have only 30 days to approve a permit. You approve 
over 200 plans a year. That is not enough time in which to 
implement the intent of the National Environmental Policy Act. 
It also explains why there are categorical exclusions that are 
simply not applied. I should say, it is quicker to grant the 
categorical exclusion and move on than to do the kind of review 
that is necessary.
    Now, I won't go into that with you, but subsequently we are 
going to need to know what it is going to take to change that. 
I understand that the President wants to extend that to 90 
days. That is an expensive process. We need to know if you have 
the resources.
    Let me ask one other question, and then I want to move on 
to the other Members.

                              MARSH BURNS

    We have a lot of questions about what the cost is going to 
be. We are being told BP is going to pick this up. I suspect 
there are going to be a great many costs that will wind up 
being borne by the Federal Government.
    We hear this morning that the intent of the admiral in 
charge is to burn the oiled salt marshes. Admiral Allen said 
that, ``Where there are conditions that are right, crews are 
going to set fire to oil-coated plants.''
    Marsh burns occur in fall and winter, not now. This is the 
wet season. I don't know how that is going to work. I can't 
imagine how you can avoid burning roots and permanently 
destroying marshes.
    Is that a decision that has been coordinated within the 
Interior Department to consider the impact upon your 
responsibility for the natural resources in that area? Do you 
have an assessment of what the short- and long-term impacts 
are?
    That is a relatively radical approach, although I think 
this situation probably requires a radical approach.
    Secretary Salazar. Chairman Moran, this is a highly 
coordinated effort among all of the Federal agencies through 
the National Response Team and the implementation of the Oil 
Pollution Act and the programs that were set up to make sure 
there was coordination in this kind of an event.
    I am not aware of the particular issue that you raise, but 
let me check on that particular issue.
    Mr. Moran. He announced it this morning. It was news to us, 
too, of course. And it would be important to know if there has 
been some coordination. Because while it may require a radical 
approach, that is one that has very substantial implications 
for the fish, the wildlife, the birds, and particularly the 
marshes. I don't know how it works and would like to know.
    Secretary Salazar. If I may, Chairman Moran----
    Mr. Moran. Go ahead. Please.
    Secretary Salazar [continuing]. We will get information 
back to you on that.
    And, if I may, I just want to respond very quickly for 30 
seconds on two of the issues that you raised.
    Mr. Moran. Yes.
    Secretary Salazar. First, on the environmental reviews, 
David Hayes and the director of the Council of Environmental 
Quality, Nancy Sutley, are leading an effort to look at all of 
the environmental reviews to make sure they are being done 
right or identify what kind of changes need to be made.
    I would remind the Committee that, even with respect to 
whatever criticism may be in the past, including this 
particular lease, there are multiple environmental impact 
statements in review--in fact, in this particular one, seven 
that occurred before the time the well was actually drilled. We 
will go through an effort to make sure that, if it can be done 
better, it will be done better and also to identify any 
particular legislative changes.

                           COSTS OF CLEAN UP

    Finally, the question you raised with respect to BP being 
accountable and liable here, we have in writing from them, at 
the request of Secretary Napolitano and myself in meetings we 
have had with the principals of BP, including the Chairman of 
the Board and President, that they will not hide behind the $75 
million liability cap and they will be responsible for all 
response costs, as well as natural resource damages, as well as 
other damages that may result from the spill.
    Mr. Moran. We trust that will be the case.
    Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.

                             LIABILITY CAP

    And just to clarify that, because I have heard a lot of 
people say, you know, ``They are only liable for $75 million, 
according to the statute, and we ought to increase that to $10 
billion,'' and other things like that. As I understand it--and 
correct me if I am wrong--it is $75 million in economic losses. 
They are still liable for all of the environmental cleanup 
costs and all of those things; is that right?
    Secretary Salazar. I am going to have David talk just a 
little bit about the law itself, because he testified on it in 
one of the Committees in the last few days and testified on the 
changes the Administration is proposing.
    With respect to this particular incident, what they have 
assured us is they will not hide behind any liability 
limitation and they will pay for everything. A company that 
made, from some reports, $16 billion, other reports, $14 
billion last year, it seems to me that we will hold them to 
their word, which we have in writing, and that is they will pay 
for everything.
    David.
    Mr. Hayes. You are correct, Congressman Simpson. They have 
complete responsibility for all response costs in responding to 
this spill. No question about that.
    The question is the economic damages, natural resource 
damages. That is the cap question. Under the current law, of 
course, that cap does not apply in the situation of gross 
negligence, or any violation of standards. So there are a 
number of situations where that cap would not apply.
    They have assured the Secretary and Secretary Napolitano in 
writing they do not intend to use that cap to limit their 
liability here.

                            OCS DEVELOPMENT

    Mr. Simpson. Okay.
    You mentioned, in response to the chairman's question, 
deepwater drilling in the OCS has to be done safely. I think we 
all agree. Are they going to stop the permits and the drilling 
in the Arctic, which, as I understand it, is not deepwater 
drilling? There is a significant difference between deepwater 
drilling and shallow water drilling.
    Secretary Salazar. Congressman Simpson, that announcement 
will be made shortly.
    The reality is there are issues of significant concern in 
the Arctic, which is why we canceled the leases in the prior 
plan. Those issues relate to the oil response capabilities and 
to the science that is, in fact, available as we move forward.
    What you are seeing today in the Gulf, as you turn on any 
television set or read any newspaper, is the greatest armada 
ever assembled to fight an oil spill.
    Mr. Simpson. Right.
    Secretary Salazar. We have significant concerns that what 
was previously thought to be so safe by members of this 
Committee, as well as the United States Congress, as well as 
the Executive Branch, may not be as safe as what we had been 
informed of.
    Until we have the safety review and the report from the 
Commission, you will see some changes that I hope this 
Committee will support as we try to get to this Committee what 
I believe you want us to do. We need to be learning all the 
lessons from this horrific incident and making sure it doesn't 
happen again. That will include a much longer conversation with 
members of the Committee.

                        PRESIDENTIAL COMMISSION

    Mr. Simpson. I am not one who is out bashing the 
administration, saying that this is Obama's Hurricane Katrina 
and so on. I don't think that advances our cause any, and our 
cause ought to be----
    Secretary Salazar. We are going to have you join in all our 
press conferences, Congressman.
    Mr. Simpson. Well, it is--you know, we ought to be focused 
on cleaning this mess up and, as you said, making sure that it 
doesn't happen again, to the extent that we can.
    Is this Commission going to look at, I suspect, the whole 
process by which we allow for deepwater and OCS drilling? Will 
it also look at the Federal response that occurred, what the 
Department did right, what they did wrong?
    I am sure there are lessons--hopefully, there are lessons 
we can learn from this as to how we would address it better in 
the future. Is the Commission going to look at those types of 
things, or will that be an internal review? Internal reviews of 
how you did something are always suspect. We need to have some 
outside sources look at this so that we learn from it, not as a 
criticism, but so that we learn from it how we would do it 
better in the future. Because I am certain that there are 
things that, if you had to go back 37 days ago, you would 
probably do a little differently.
    Secretary Salazar. Congressman Simpson, you are absolutely 
correct, and we are thinking along the same track there. There 
are multiple investigations under way, but they will all feed 
into the Commission. Within the Department of the Interior and 
the Coast Guard, there is a joint investigation of the incident 
that will feed into the Presidential Commission. There is 
another investigation, which I have asked the Inspector General 
to conduct, of what happened and whether there were 
improprieties relative to the regulatory effort. The Commission 
will have its own independence to make these decisions.
    We also will be contracting with the National Academy of 
Engineers, to have them come in and take a third-party, 
independent review of new safety measures that can be taken 
with respect to this.

                              LIZ BIRNBAUM

    Chairman Moran, if I may make a statement, because I want 
to come in front of the Committee where I see so many people 
who have been so strong in support of the Department of the 
Interior--and be as forthright as I can. Liz Birnbaum has 
resigned as the Director of the Minerals Management Service. 
She did it on her own terms and her own volition.
    Liz Birnbaum is a strong and very effective person who, 
among other things, helped us break through the very difficult 
issues on standing up offshore wind in the Atlantic, where we 
still have a lot more work to do. She helped us move forward to 
address what was a very broken system that we found when I came 
into the Department of Interior. She is a good public servant.
    Mr. Simpson. Thank you. I appreciate that.
    One last question, Mr. Chairman?
    Mr. Moran. Thank you, Mr. Secretary.
    If I could, Mike, to the young ladies who are holding the 
banner, you are doing it silently and I don't have a problem 
with it. But if you wouldn't mind standing with your back to 
the wall so that it doesn't interfere with the view of the 
other people. Just as long as we are considerate of others is 
all I ask. There is a corner here where we could still see it, 
and it wouldn't block the view of other people. Or you can 
stand by the wall, if you would like.
    Thank you.
    As long as people are quiet and respectful, they can 
express their views, but we don't want it to be inconsiderate 
of others.
    Mr. Simpson.
    Mr. Simpson. One last question that concerns the 
jurisdiction, actually, of this committee.

                          SUPPLEMENTAL REQUEST

    You requested $29 million in additional appropriation. 
Could you go through what that is for?
    Any idea yet on what we can expect, looking forward on what 
we are going to have to appropriate in the future, what it is 
going to cost us in terms of both addressing this spill and, as 
you said, reforming the Department and the Minerals Management 
Service?
    Secretary Salazar. I will have the Deputy Secretary, 
Congressman Simpson, respond to this specific question.
    Mr. Hayes. Congressman, of the $29 million, approximately 
$20 million is focused on the Minerals Management Service, 
including, in particular, engineering studies, investigations, 
enforcement, and more inspections. As you know, in our 2011 
budget, we also had a modest increase request for more 
inspectors.
    Mr. Simpson. Isn't it true that we only have 65 inspectors 
in MMS for the entire country?
    Mr. Hayes. Yes.
    Mr. Simpson. That is both onshore and offshore?
    Mr. Hayes. That is offshore. They are virtually all in the 
Gulf. There are, I think, five in California. There are, I 
think, 55 in the Gulf, and they are the ones that cover all of 
the offshore. We are interested in beefing that up for obvious 
reasons, and that is the bulk of the $29 million request.
    However, there is a substantial request of about $7 million 
to support these independent science efforts the Secretary just 
alluded to, including the National Academy of Engineering 
independent root cause analysis, the special safety oversight 
board the Secretary established, the 30-day report we are 
delivering to the President today, and then a couple of 
additional million dollars in additional activities.
    Mr. Moran. David, would you bring the microphone closer? We 
are being told that nobody can hear you.
    Mr. Hayes. Thank you. So just to recap, $20 million for 
enforcement and inspection, MMS-related activities, $7 million 
for independent science and also to support the internal 
scientific investigations, engineering investigations, and some 
additional activities that do not qualify for reimbursement 
under the Oil Pollution Act, the spill fund. We estimate that 
to date we have spent about $8 million already responding to 
the crisis. We have agreements, Pollution Removal Funding 
Authorizations, that we are working through to preauthorize 
funding for a lot of the response activities in the Gulf. We 
have agreements with the National Park Service, the Fish and 
Wildlife Service, and the Minerals Management Service. So far 
we have spent about $4 million of the $7 million we think will 
be directly reimbursable under these agreements, under the Oil 
Pollution Act of 1990 through the Coast Guard. There are some 
additional expenses, such as increased inspections, for 
example, and others, that are not directly reimbursable.
    Mr. Simpson. And that will be an ongoing expense?
    Mr. Hayes. That will be an ongoing expense, yes.
    Mr. Moran. Thank you Mr. Simpson. Mr. Obey.

                       INTERNATIONAL REGULATIONS

    Mr. Obey. Mr. Secretary, just one question. Do we have 
anything that we can learn by looking at global experiences 
with problems like this? For example, drilling off Indonesia or 
in the North Sea by the Norwegians? What has their experience 
been with respect to oil spills? What is the difference in, for 
example, the Norwegian regulatory regimen versus our own? My 
understanding is that in Norway, they have done roughly what 
the administration is proposing by way of separating the 
leasing function from the oversight and regulatory function. Is 
there anything at all that we can gather from their 
experiences? Or aren't they comparable?
    Secretary Salazar. Chairman Obey, there is a lot we can 
learn from their experiences, and indeed the report that should 
be on its way to the President momentarily actually has looked 
at all the regulatory regimes in those other countries. I will 
say it is known that we do have one of the more stronger 
regulatory regimes with respect to Outer Continental Shelf oil 
and gas development. I think, as this incident in the Gulf of 
Mexico demonstrates, there is a lot more that can be done. We 
will obviously learn a lot more, but I have spent a good amount 
of my own personal time trying to understand these blowout 
prevention mechanisms and how they could be upgraded with 
additional redundancies. The fact of the matter is that they 
can be, and the fact of the matter is that there are ways in 
which they can be actuated with redundancies that can be put 
into place. That will all be part of what we will move forward 
because the President has been very clear. We essentially will 
not allow any more deepwater drilling until we can ensure that 
we are doing it in the safest way possible, and we believe that 
we can do it safer.
    Mr. Obey. My understanding in Norway is that they get as 
much as a third of their revenue from offshore oil drilling, 
and I am wondering what their experience has been. Have they 
had any significant spills during their drilling history?
    Secretary Salazar. Let me say, this is not complete, but 
there have been huge spills, much larger than what we are 
seeing in the Gulf of Mexico today over time. I am looking at 
the 1979 spill in the Gulf of Mexico by Pemex in what they 
called the Ixtoc I oil well. That went from June 3, 1979, to 
March 23, 1980, before it was capped. During that duration in 
the Gulf of Mexico, it dumped 3.5 million barrels of oil into 
the ocean. There are a whole host of other ones in the Persian 
Gulf, in France, in Africa and others. The fact is that there 
is that kind of information out there.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Moran. Thank you very much, Mr. Obey. Mr. Lewis.
    Mr. Lewis. Thank you very much, Mr. Chairman. Secretary 
Salazar, I was pleased, I think, to hear you suggest that you 
have had this responsibility for about 16 months, and thereby 
implied that maybe President Bush isn't responsible for this 
particular spill. Am I correct in that?

                        REFORMS AND BUREAUCRACY

    Secretary Salazar. You are correct in that we have made 
very significant reforms. There are more reforms to be made, 
and we did inherit what essentially--and I think you and this 
Committee probably know this more than anybody else--what had 
been a Department that had been significantly eroded through a 
number of different means, including budget, for many years. It 
is a conversation which Congressman Simpson and I have had many 
times, and it is not a Democratic or Republican issue. I think 
one of the lessons to be learned from all this is that when you 
have a government, you need to support that government to be 
able to work in all of its essential functions, including the 
protection of the public safety and the environment.
    Mr. Lewis. Indeed Presidents do come and go. The underlying 
bureaucracy is there for a long, long time. They have got 
serious responsibilities that we assume they will continue to 
move forward with.

                               MORATORIA

    I am interested, for the committee and for me, to have you 
clarify exactly what is your meaning of moratoria. Are we 
talking about moratoria of deepwater drilling? Are we including 
in that, however, what can be a very long process whereby 
people go through applying for the opportunity to drill in the 
future? Would you clarify for the committee exactly what your 
definition is of moratorium?
    Secretary Salazar. The President's announcement will happen 
in the next several hours, and I should defer to my President 
to make sure I don't say something different than what he is 
going to say. I will say this, the direction he has given me 
and the direction which I accept and the direction which I 
think is correct is that we need to push the pause button with 
respect to deepwater, because we need to make sure the lessons 
from this horrific tragedy are learned.
    We also recognize--and I think this has been clear from the 
beginning of this Administration--that we see oil and gas 
development as part of the energy portfolio for the future, 
along with solar, wind, geothermal, and biomass. The reality is 
the place where you have the abundance of oil and gas reserves 
is still in the Outer Continental Shelf. I think it is 
important that we move forward thoughtfully.
    When we are talking about hitting the pause button, we are 
talking about taking the time out to essentially learn what 
exactly happened here to do everything we can to ensure that it 
doesn't happen again.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Lewis.

                            RIG INSPECTIONS

    Mr. Dicks.
    Mr. Dicks. Thank you, Mr. Secretary, for being here. I know 
you are doing everything you can to deal with this problem.
    The Wall Street Journal reported, using MMS data, a decline 
in rig inspections from 1,292 in 2005 to 760 in 2009. With the 
growth in the industry, this decline in inspections is 
troublesome. We have talked about the 55 inspectors, and we are 
adding some. You asked for 11. We are putting them in the 
supplemental. The money is in the supplemental, by the way, 
that you requested. How many safety inspectors does the MMS 
employ? And what resources does the Department need to ensure 
the number of inspection increases?
    Now, the reason I am asking that is, on the MMS Web site, 
the agency claims that each rig must be inspected once per 
month. News reports, however, indicate that schedule is not 
always kept. Prior to the incident in the Gulf, how often were 
drilling rigs inspected? And what was the scope of these 
inspections? Have inspections included an evaluation of the 
functioning of the blowout prevention equipment below the 
water's surface? And is it satisfactory just to have one 
prevention technique, or should there be more redundancy? And I 
am sure when you get the National Academy's study, that is one 
of the things you are going to ask them to look at.
    But this is troublesome, that these inspections have 
declined and that we may not be inspecting these on a regular 
basis. What can you tell us about this?
    Secretary Salazar. Congressman Dicks, first, as you know, 
even on the budget we presented with respect to 2011, we have 
requested additional inspectors.
    Mr. Dicks. Right. And we put those in the supplemental.
    Secretary Salazar. Well, even before the supplemental in 
the President's budget, we knew that there were additional 
inspectors that we needed, and we requested them.
    With respect to the rest of your question, I will have the 
Deputy Secretary comment on that.
    Mr. Hayes. Congressman, you are correct. The number of 
inspections has gone down. We will give you the specifics on 
that. Ironically, actually, the number of active drilling 
platforms has gone down, too. They tend to be more concentrated 
efforts. So that is not as significant a data point as it might 
appear.
    Mr. Dicks. Okay.
    Mr. Hayes. You raise some very important points. Let me 
just run through the others. In terms of the frequency of 
inspection, there is an effort during drilling activities to 
have an inspection once a month, and that has not been hit 
completely, which is one of the reasons we are interested in 
more inspections. Although for drilling activities, it is very 
close to once a month. Probably more important is that we need 
to do a stem-to-stern evaluation of the effectiveness of these 
inspections. In fact the Secretary last fall, before any of 
this arose, asked the National Academy of Science's 
Transportation Board to do an evaluation of the effectiveness 
of our inspections, and that independent evaluation is ongoing. 
We are very much looking forward to the results.
    Your final question, Congressman, went to the issue of 
whether blowout preventers are tested at sea, at depth when 
they are put down below on the seabed. They are not.
    Mr. Dicks. Can they be?
    Mr. Hayes. There are tests down below about the hydraulics. 
What has not been tested down below are secondary systems or 
emergency systems. The safety report the Secretary is 
delivering to the President today goes into this in some detail 
and identifies a number of areas like this very specifically, 
Congressman, where we think there needs to be some fresh 
thinking about additional inspections, and additional testing 
specifically going to the issues that arose in the Deepwater 
Horizon and the failure of the BOP.

                              NEPA REVIEW

    Mr. Dicks. Another point that was made by a lieutenant 
commander in the Coast Guard was that offshore regulations, 
environmental regulations, were out of date. He said, a 20-
year-old categorical exclusion under NEPA was used to approve 
drilling by the BP-leased Deepwater Horizon rig in the Gulf. We 
have heard over the last month that technological advances and 
research in deepwater drilling are similar to those of our 
sophisticated space exploration program. Yet we still use 20-
year-old environmental reviews to approve new drilling 
activities. What can you tell us about that, David?
    Mr. Hayes. Congressman, that is correct. That is the 
National Environmental Policy Act categorical exclusion policy 
that Chairman Sutley indicated earlier this year--actually in 
February of this year--that CEQ is reviewing whether it makes 
sense to continue with that policy. We have an additional 
challenge here, as you know, that we process exploration 
permits within 30 days, and that is not enough time to do a 
good analysis, which has led to those categorical exclusions. I 
will finally say that the Secretary and Nancy Sutley agreed and 
announced about ten days ago that they are doing a joint review 
of this very issue.

                              INSPECTIONS

    Mr. Dicks. Because this does earn a lot of revenue, $13 
billion or $14 billion a year, I think we ought to be very much 
on the side of making sure that we have the people who are 
properly trained and who can make these inspections and do them 
professionally and on a timely basis, and the science. The 
budget was cut by $2 million on science this year. I think we 
will put that money back in. But I think we should have 
overkill here in terms of the inspections and the quality of 
the people doing it.
    Thank you.
    Mr. Moran. Thank you very much, Mr. Dicks. Mr. Calvert.

                            COASTAL BARRIERS

    Mr. Calvert. Thank you, Mr. Chairman. As was mentioned by 
others, I think there will be time to investigate what went 
wrong and what needs to be done in the future. But I think a 
lot of folks, quite frankly, are interested in what we are 
doing now.
    Governor Jindal of Louisiana has asked for immediate 
authority to build coastal barriers to protect coastal marsh 
land and estuaries. Obviously he is very concerned, and has 
been on the news lately. Is there any reason why you could not 
give the Governor immediate authority to move ahead on building 
these coastal barriers? I know that there is always a downside 
to everything, but it seems from listening to a number of 
experts that the risks posed by the oil are far worse than 
other problems associated with the barriers. I want to listen 
to where we are on that and whether or not permits are going to 
be issued to give the Governor the authority to move ahead on 
this.
    Secretary Salazar. Congressman Calvert, I can tell you that 
this issue is one in which the National Incident Commander, 
Admiral Allen, has been engaged and is engaged in even today 
with the Governor of Louisiana. Hopefully there will be a 
resolution that is workable. It is an ongoing thing, and 
Admiral Allen is totally on top of it.
    Mr. Calvert. Well, it seems that, again, based on news 
stories I have been reading that we are running out of time and 
oil is now going into the marshlands. I believe the Governor 
asked two weeks ago for permission to move ahead on building 
coastal barriers. As I understand it, as of today no permits 
have been issued or no permission has been given to the 
Governor to move forward.
    Secretary Salazar. Congressman Calvert, what we need to 
make sure happens, as we respond to this, is that we are doing 
things that are not going to make things worse. That is part of 
what Admiral Allen is assessing, and he is, along with all the 
Federal team, making sure we are doing everything possible, 
including looking at every idea that is placed on the table, 
including these ideas that have been placed on the table by 
Governor Jindal.
    Mr. Calvert. Okay. Thank you. Thank you, Mr. Chairman.
    Mr. Moran. Thank you very much, Mr. Calvert. The chair of 
the Science, Justice, and Commerce Subcommittee, Mr. Mollohan.

                              REGULATIONS

    Mr. Mollohan. Thank you, Mr. Chairman. Mr. Secretary, 
welcome to the hearing.
    Mr. Dicks asked you some questions about inspectors and the 
number of inspections. I would like to ask you a series of 
questions with regard to the standard to which the companies 
were supposed to operate or are operating and what regulatory 
scheme under which they are operating that these inspectors are 
inspecting under. What is the regulatory regime? What are the 
statutory authorities? And are they mandatory? Are they 
voluntary? What kind of safety and environmental regulations or 
rules are the drilling operations operating under?
    Secretary Salazar. Congressman, there is a comprehensive 
set of regulations to regulate the industry, including many 
mandatory provisions relating to cementing, relating to blowout 
preventers and redundancies in those mechanisms. There is a 
comprehensive regulatory regime in place. It is included in my 
report to the President, as we look at what we do here in the 
United States versus what is happening in other countries, we 
have a regulatory regime that is comprehensive in nature. It 
doesn't mean it is not a regulatory regime that needs to be 
significantly strengthened, for example, on the issues of 
blowout preventers and redundancies. In fact, there will be 
additional requirements we will be imposing.

                         PERFORMANCE STANDARDS

    Mr. Mollohan. The Wall Street Journal reports that over the 
past several years the MMS has adopted broad performance 
standards that industry is required to meet and does not 
enforce a specific set of safety rules for the OCS operations. 
Is that correct? And to what extent is that correct?
    Secretary Salazar. The standards are, in fact, both 
mandatory as well as performance-based. The Deputy Secretary, 
who has been working on this issue, will comment.
    Mr. Mollohan. Thank you, Mr. Secretary.
    Mr. Hayes. Congressman, the regulatory structure is both 
prescriptive and performance-based. Interestingly, back to the 
chairman's question, Norway, for example, has a performance-
based approach more than a prescriptive-based approach. The MMS 
regulations are a mix, which we think is appropriate. What we 
are looking at is potentially additional prescriptions, 
however, because limiting the prescriptions may not be 
appropriate. I will say that this regulatory structure has been 
laid out over the last several years under the Outer 
Continental Shelf Lands Act, which itself provides ample 
authority for the Department to have a robust regulatory 
system.
    Mr. Mollohan. Well, according to MMS and the Wall Street 
Journal, the safety and environmental management plan is a 
voluntary program that is meant to complement other MMS 
regulations. The plan is a process for OCS oil and gas, and I 
quote, ``that recognizes worker safety and pollution control 
are largely dependent on proper human behavior.''
    We have this issue and this question in the coal industry.
    Mr. Hayes. Yes.

                              REGULATIONS

    Mr. Mollohan. And what we are really finding is that 
discretion, to the extent it exists in dangerous situations, 
leads to disasters. I was just wondering if you would comment 
on the quote, that the plan recognizes worker safety and 
pollution control are largely dependent on proper human 
behavior. I would suggest the regulatory scheme should dictate 
proper human behavior.
    Mr. Hayes. Well, this is an important point. As I mentioned 
before, the regulatory system is quite prescriptive. There was 
a proposal in the mid-nineties to also have a safety management 
system-type requirement. That is what that is referring to, and 
that was adopted on a voluntary basis to actually just have 
companies explain what management systems they were going to 
have, to make sure the legally required mandates were, in fact, 
being followed. Over the last ten years, that has been 
implemented on a voluntary basis. Actually the MMS recently 
suggested it be codified that there would be a specific 
requirement that companies adopt management systems not on a 
voluntary basis. That rule is now being finalized, and that is 
referenced in the safety report being presented to the 
Secretary today.
    Mr. Mollohan. Well, does this lead to inspectors not having 
a statutory or regulatorily promulgated standard to reference 
when they go out and inspect?
    Mr. Hayes. No. If you look at our Code of Federal 
Regulations, it looks like an EPA code of regulations or a 
mining code of regulations. The inspectors have a very long 
checklist of very specific requirements and they have an 
enforcement program that identifies more than 2,000 violations 
per year. They typically will have fines of about $1 million 
per year. These are all based on mandatory requirements, but 
that journal article I was talking about is the notion of 
having a safety management system that sort of overlies this. 
We think it is a good idea to, in fact, have that as well. But 
that doesn't go to the question of inspection requirements. 
They are all laid out in the regulations.
    Mr. Mollohan. Would you identify for the committee areas of 
inadequacy with regard to statutory and regulatory authority or 
rules that you have promulgated, things that need to be done 
additionally?
    Mr. Hayes. The report we are filing today and we will make 
public today will identify a number of areas where we think 
there should be some additional strengthening, Congressman.
    Mr. Mollohan. Do you intend to move forward with rule 
promulgation to address that?
    Mr. Hayes. Yes. That is our recommendation to the 
President.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Mollohan. For the sake of the 
committee's understanding of the time schedule, we have just 
been told that in about 15 minutes, we will have a series of 
four votes. We will try to keep the hearing going, but will see 
if we can't wrap up before noontime. Just one other thing. They 
just announced this is clearly the largest oil spill in our 
Nation's history, from 20 to 40 million gallons. So it is two 
to four times larger than the Exxon Valdez, which was 
previously the most damaging.
    And this will be the only round of questions for the 
Secretary. We will have a subsequent panel in the afternoon to 
deal with the Fish and Wildlife Service.
    Mr. Cole.

                      ENFORCEMENT AND REGULATIONS

    Mr. Cole. Thank you, Mr. Chairman. Mr. Secretary, thank you 
for being here. We sort of touched on it, but I want to break 
this into three parts and ask you to assess, in your view, 
where shortcomings may have occurred. You could have a 
situation where, number one, the regulations were all followed, 
the equipment was the appropriate equipment but it just wasn't 
enough. Secretary Hayes touched on this a little bit. What are 
the shortcomings in the regulatory framework and the 
requirements that currently exist that we ought to now in 
retrospect fix?
    Two, you could have a situation where all those things were 
fine but there wasn't an enforcement mechanism or there wasn't 
enough personnel or they didn't do their job correctly. So 
there is nothing wrong with the structure of the regulations, 
there is nothing wrong with the requirements, but there is a 
failure in the enforcement mechanism itself.
    And three, you can have a case where there is a uniquely 
bad incident or a bad actor who has not done what they were 
supposed to do, has deliberately evaded the requirements. I 
know it is early to tell, but I would like your overview on 
whatever you think--how these factors relate together and 
explain what happened.
    Secretary Salazar. Congressman Cole, I think that is why it 
is so important that this Commission have the opportunity to 
look at all of those questions, including what happened in this 
particular incident. You have probably by now seen many of the 
stories about what people think happened, what was going on in 
the rig, and rubber that apparently came up and a whole host of 
things that were missed. The question of operator error, how 
much of that was responsible for this, the working theories 
relative to whether it was a defective placement of the 
cementing or the casing because a blowout essentially on a well 
is never supposed to happen. It did happen. Then you have the 
whole set of questions relating to the blowout prevention 
mechanism, and the actuation of that blowout prevention 
mechanism both from the rig as well as from the ground. What 
happened on the rig itself with the fire and the blowout? There 
is a whole series of questions that have to be asked and 
answered.
    As part of that, Congressman Cole, I think it is very 
important and very obvious that we do what the President has 
asked us to do and, I think, what this Congress is asking us to 
do, which is to look at how we can improve the regulatory 
regime with respect to OCS. The report that we present to the 
President very shortly will lay out a number of places where we 
think safety can be improved.
    I don't know if that answers your question, but the fact is 
we are in a dynamic process, right in the middle of crossing 
the river. When all is said and done, the lessons learned will 
include all of the series of issues you have raised.
    Mr. Cole. Fair enough. It is early to ask that question, I 
understand.

                        INTERNATIONAL STANDARDS

    Two other questions. This was touched on earlier. Obviously 
drilling goes on by a variety of countries in a variety of 
environments all over the world offshore. This is for 
informational purposes. Is there any sort of international set 
of standards for offshore drilling or does each country more or 
less decide individually? Two, if that is the case, is there 
any thought about the administration having more international 
coordination? It is terrible because it has happened obviously 
in our Gulf, but it would be just as bad someplace else in the 
world, and we all live in the same environment. So what is 
happening internationally on this?
    Secretary Salazar. I will comment and have David comment as 
well on that. Especially when you are talking about the Arctic 
waters, I have wanted to make sure the other countries that are 
involved, including Norway, Canada and Russia, that we 
understand and learn from each other. I made a trip to Canada 
to meet with the countries that share the Arctic area to get 
additional information from them. We should learn from each 
other.
    Mr. Hayes. Congressman, briefly, there is a lot of sharing 
of information at the international level. Both among the 
regulators and MMS working with regulatory authorities in 
Norway, Brazil and other countries that do this activity. There 
is not a blue book of accepted international standards. There 
is an active industry standard development process that is also 
shared globally. This is one of the things we want to look at 
because our desire is to have absolutely world-class efforts 
and to make sure the rest of the world also benefits from this.
    It is a focus of the Secretary's report to the President, 
and it is going to be a focus, I am sure, of the Presidential 
commission.

                       COMMUNICATION COORDINATION

    Mr. Cole. Okay. Last question if I may, Mr. Chairman. Let 
me make it clear when I ask this question I have really high 
respect for Admiral Allen. I really do. I dealt with him during 
Katrina. I think he is really one of the greatest public 
servants I have ever encountered. I have enormously high 
respect for you, too, Mr. Secretary. I think you have done a 
great job for the President and I think you have done a good 
job in a difficult situation. It has caused me concern that a 
week ago or a couple of weeks ago the two of you seemed to be 
on different pages with BP and their involvement and how we 
ought to be handling that.
    It concerned me this morning when I heard a report on NPR 
about Admiral Allen floating the idea of burning oil in the 
marshes. It worries me that you didn't know, and that there 
wasn't coordination. I don't say that to be critical of you or 
him. But is there a mechanism here where you guys are 
communicating well? I think you have been a little bit out of 
sync with one another. Let me be fair, in the middle of an 
ongoing crisis, it is pretty easy to lose coordination. But I 
think it is something to think about because there are a lot of 
mixed messages going out from a PR standpoint. It creates a 
little bit of confusion.
    Secretary Salazar. Congressman Cole, I think Admiral Allen 
and I have probably been in more communication than--in fact, I 
know I have communicated with him a lot more than I have with 
my wife over the last 37 days. We are very coordinated. We have 
a nightly call where we catch up on exactly what has happened 
during the day on the big issues we are handling, and on what 
the Governors and others are requesting. This is a highly 
coordinated effort.
    That is the first point I would make. The second point, in 
terms of the roles--you, Congressman Cole, know how words 
sometimes are taken. The reality of it is pretty clear and I 
think Admiral Allen agrees as well. We, as the United States of 
America, have the responsibility of holding BP accountable. One 
of the roles I have played is, I am holding them accountable in 
Houston to make sure the best science is brought to bear. That 
is why this is probably Dr. McNutt's first time in Washington 
for 3 weeks, because she has been at the command center. I 
ordered them to have Secretary Chu and his people there as 
well. You know the role that we play is as the directors, and I 
think we have played that well. People may describe that role 
in different ways, but there is not a substantive difference in 
the understanding of the role.
    Mr. Moran. Mr. Chandler.

                           RESPONSE TO SPILL

    Mr. Chandler. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for all this hard work that you have undertaken. I know 
that there are a lot of us who have a great deal of confidence 
in the fact that you are there and on the job. If you are 
anything like me, it frustrates you a little bit that often the 
first folks that criticize the response of the government seem 
to be the anti-regulatory or the shrink-the-government crowd. I 
find that ironic. I don't know if you do, but that happens 
quite often, and it seems to be happening here in this 
situation.

                                   BP

    I would like to touch on BP a little bit, if I may. We in 
this country refer to our fossil fuels, whether they be oil, 
gas, coal, whatever, as our natural resources. The key word 
here being ``our.'' These resources, in my view, belong to the 
American people. When the Minerals Management Service approves 
a drilling operation, they are, again, in my view, bestowing on 
a private company the right to make profit off of what belongs 
to the American people. That is what that transaction entails. 
And the profits, indeed, are immense.
    It is astonishing to me. BP's net profit in 2009 was $16.6 
billion. That equates to about $45.4 million every day in 
profit. And we know what profit is. That is what is after all 
of the expenses, all of the expenses taken to extract what are 
our natural resources. This is the profit that they have made. 
My understanding is, in the first quarter of 2010, the profits 
jumped 135 percent, and they are now making profits at a rate 
of $60-plus million a day. With making these profits by 
extracting our country's resources, these companies of course 
have a responsibility. And if these companies can't take that 
responsibility seriously, we really need to do something about 
it.
    Obviously we have had tragedies. This is the most recent 
one. But we have had others where lives are lost in this 
activity, and entire regions of the country are decimated and 
in some cases entire economies. People who obviously had no 
fault in this, their livelihoods are being ruined as a result 
of this. We are seeing the destruction of travel, tourism, the 
hospitality industry, fishing. All of these things. When we 
give these companies the right to make profits off of our 
resources, they make the profits, and it seems like so often at 
the end of the day, the taxpayers end up being on the hook for 
a lot of the costs. It seems like that is the case more and 
more often.

                         DIVERTED DOI RESOURCES

    Now I would be interested to know to what extent is your 
agency having to divert resources to this crisis, that would be 
used in other circumstances that this subcommittee is going to 
ultimately have to give you more money to replace? I suspect 
that something like that is going to happen in the future, 
through no fault of your own of course, but because you are 
responding to this crisis. I would be curious if you could try 
to address that. And I certainly don't expect you to have any 
particular numbers on it at this point. But also, what are you 
going to be doing in the future to make sure that BP does foot 
the entire bill for all of these things and all of the costs to 
the taxpayers?

                            ROYALTY WAIVERS

    You know we have also given these companies quite large tax 
breaks in the past, and we have given them royalty waivers. I 
would like to explore with you the royalty waiver program. Do 
you believe that the royalty rates that we are receiving from 
not just this company but in general, are decent compensation? 
Are they sufficient for the risk that the American taxpayer has 
to undertake in these circumstances and for all of the 
potential damage that could be caused? And can you tell me, how 
has the royalty waiver program impacted the type of exploration 
that is performed, the risks taken, and how it may have 
contributed to this particular failure?
    Thank you, Mr. Chairman.
    Mr. Moran. Mr. Secretary.

                                RESPONSE

    Secretary Salazar. Congressman Chandler, let me first say 
that with respect to the Department of Interior's efforts along 
the Gulf Coast, it is a massive mobilization on our part, and 
it includes many agencies. You will hear in much more detail 
from Assistant Secretary Tom Strickland about what the Fish and 
Wildlife Service, the National Park Service, and other agencies 
are doing down in the region. He is in charge and on point 
dealing with the protection of the Gulf, and can articulate 
those efforts. There is, indeed, significant expense associated 
with that. They are a part of the oil spill response expense, 
and so we expect that BP will be paying for those expenses, and 
we have set up accounting mechanisms not only for us at 
Interior but across the Federal Government so we can get those 
funds from BP.

                               ROYALTIES

    Secondly, with respect to royalties and the collection of 
those royalties from companies that use American property to 
essentially create profit for themselves, it is an issue we 
have been working very hard on. This has been part of our 
reform effort. As you know, Congressman Chandler, on the 
onshore we have had a royalty rate of 12.5 percent in place 
since 1920. It seems to me that it is high time, when you look 
at the royalty rates in the State of Texas and other places, we 
reform that. With respect to the offshore, we have underway a 
number of different efforts to try to get a fair return to the 
American taxpayer, including royalty simplification and how 
royalties are calculated.
    The driving principle I have articulated in front of this 
Committee in the past and many times in front of other 
committees in Congress is that my responsibility as Secretary 
of Interior is to make sure the American taxpayer is getting a 
fair return for the use of these very valuable resources, and 
that effort, no matter the gravity of the moment, is important, 
and will, in fact, continue.

                           MMS REORGANIZATION

    Mr. Moran. Thank you. Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Mr. Chairman. And thank 
you, Mr. Secretary and Mr. Vice Secretary. I very much 
appreciate everything that you are doing. We are deeply 
grateful to you and we know all of the energy and all of the 
time you have been putting into this. It is absolutely 
essential that you have done so and you are making a big 
difference in this operation.
    I just want to say candidly that this tragic disaster in 
the Gulf of Mexico is just another example of the deeply 
adverse set of circumstances that this administration has 
inherited and the complex conditions that they have to deal 
with both domestically and internationally. This is just one of 
those very, very tragic issues. I very much appreciate what you 
are doing, the focus of attention on it, the changes that are 
being made. All of those things are absolutely essential, and 
they seem to be done very, very well. One of the things that 
you talked about is MMS and how changes are being made in MMS. 
MMS, we know, was incompetent and to a substantial degree, even 
corrupt in the way that it oversaw the operations there. Are 
you comfortable now with the way in which MMS is being changed 
and being operated? Do we have to become involved in that? How 
do you feel about this and the changes that are being made?
    Secretary Salazar. Congressman Hinchey, I appreciate your 
comment. The fact is, yes, we need your involvement as we move 
forward with the reorganization of MMS. Essentially what I have 
done is to blow up that agency but it carries on a very 
important function for the United States of America. That is 
why we put it together in the Office of Natural Resources 
Revenues, away from the mines and minerals and why we set up 
the bureaus of Safety and Environmental Enforcement as well as 
Ocean Energy Management, our key initiatives. I have a star 
team, a SWAT team that has been assigned to pull that together. 
I gave them a 30-day time period in order to be able to have an 
opportunity to consult with you and with your staff as we pull 
together the new organizations. We need your help in getting it 
done.

                 MANAGEMENT CONTROLS AND ACCOUNTABILITY

    Mr. Hinchey. I thank you very much. I appreciate what you 
are doing in that particular regard. I just wanted to say that 
it was over two weeks ago when BP-Transocean executives 
testified before a Senate committee, and it was clear that if 
you look at how the management of this rig was structured, 
there was no surprise in the way in which this came about. One 
of the things that became apparent was that BP owned the lease 
to drill. Transocean owned the rig used to drill the well. 
Halliburton was in charge of cementing the well casing. And the 
situation went on and on. I mean, this was such a deeply 
complex set of circumstances which was almost impossible to 
control. One of the reasons it was almost impossible to control 
was the interaction, the adverse interaction apparently, 
between these organizations. There was a great deal of 
indecision in the moments leading up to this explosion, and the 
explosion then took place.
    Who was in charge of the drilling operation? Which of these 
parties had the final decision on the rig operations? I know 
that this is something that you have begun to look into. Maybe 
it is not clear yet what the set of circumstances are. To 
whatever extent you can say so specifically would be important, 
but we would appreciate it as time goes on, too, because I know 
that you are going to continue to look into this and 
investigate it even more.
    Doesn't the Interior Department need to ensure that 
effective management controls and structures are in place so 
that we are not faced with indecision and so that 
accountability cannot be outsourced? One of those aspects of 
accountability was the apparent refusal--and I assume it was--
that refused this remote control cutoff switch whose functions 
would have been to seal off the well in case the rig above it 
was destroyed. So this was something that was obviously just 
neglected.
    These are the things that I know that you are paying 
attention to, and it probably has some relationship to the 
situation that you are dealing with offshore in Alaska now.
    Can you just give us some indication about what is going on 
there in this particular case?
    Mr. Moran. Thank you, Mr. Hinchey. Mr. Secretary, we do 
want to give Ms. McCollum an opportunity to ask questions as 
well. So please proceed, Mr. Secretary, and then we will go to 
Ms. McCollum.
    Secretary Salazar. First, Congressman Hinchey, BP is the 
responsible party under the law and under the legal arrangement 
between the United States of America and BP as the lessee of 
this property and this resource. Within that construct, there 
are a number of contractual arrangements they enter into, 
including in this particular case with Transocean and other 
subcontracts for cementing and a whole host of other things 
with some of the companies you mentioned. I think you will be 
very interested to know these investigations will give us a lot 
of answers about what happened on the rig that day and that 
evening. I look forward to the results of an investigation that 
is, in fact, based on the facts of everything being 
investigated right now. I would expect, Mr. Chairman, you may 
want to have a hearing whenever those investigations are 
complete.
    With respect to the switch and what was going on with some 
of the deficiencies, that is also part of what the 
investigation is looking at. We are not waiting for the results 
of the investigation to come out as we move forward with the 
report we are sending over to the President that will talk 
about significant additional safety measures that can be put 
into place.
    Finally, with respect to your last question on Alaska, you 
will hear more as the President makes his announcement in an 
hour or two.
    Mr. Hinchey. Thank you very much.
    Mr. Moran. Thank you very much, Mr. Hinchey. Ms. McCollum.

                         DRILLING IN THE ARCTIC

    Ms. McCollum. Thank you, Mr. Chair.
    Secretary Salazar, as has been pointed out by yourself and 
many people, the catastrophe in the Gulf has been a tragedy for 
the workers who lost their lives, for the fishermen and others 
whose livelihoods are now ruined, for the unknown environmental 
impacts on public health and wildlife for which we simply have 
no idea what the future looks like.
    BP was drilling in waters, as has been pointed out time and 
time again, owned by the American people. This oil spill now 
threatens many of our natural treasures, from the delicate 
coral reefs in Florida to the Louisiana wetlands that harbor 
life for thousands of wildlife species.
    Now, Secretary Salazar, in light of the disasters in the 
Gulf of Mexico and the corrupt state of MMS, I have grave 
concerns about allowing drilling in the Arctic. Trusting the 
work of MMS and the assurances of Shell Oil under the current 
regulations we are operating under is just unacceptable. So I 
am asking you, and I know it has been pointed out that the 
President is going to be making an announcement shortly, I am 
asking you to continue to use your powers to stop all the 
drilling in the Beaufort and Chukchi Seas until we really have 
answers on what went wrong with BP and, until we really have 
ideas of what we are doing going forward. Until this happens, 
off shore drilling needs to stop and stop now.
    So I welcome an announcement by the President because I 
have seen firsthand how fragile this area is in the Arctic, and 
I believe that we need to be working together to do everything 
we can do to make sure that you have all the tools that you 
need to put regulations in place that we know will work before 
any further drilling in this area commences.
    Now you have two major cleanups going on right now: The one 
in the Gulf, the oil spill that you have been answering 
questions on, and then you have also been answering questions 
on the regulatory cleanup mess and the deep corruption and the 
mismanagement that has plagued this agency that you inherited. 
Now you have been talking about some of your plans to clean up 
the agency, and I just want to reiterate how important this is. 
According to a story in The Washington Post Tuesday, May 25, 
2010, MMS actions are shaped by a 2005 regulation it adopted 
that ``assumes''--oil and gas companies can best evaluate the 
environmental effects of their operations.
    So once again, I am asking for the drilling to stop until 
we put effective, new, stringent, accountable regulations in 
place. The Washington Post goes on to say, the rule governing 
which information MMS should receive and review before signing 
off on the drilling plan states, quote, the leasor or the 
operator is in the best position to determine the environmental 
effects and its proposed activity based on whether or not the 
operation is routine or nonroutine.
    I think we have the science in our toolbox to make that 
decision, so I look forward to you doing that. So my questions 
are simple, and I think I have heard you clearly say that you 
will be coming to Congress to request legislation authorizing 
this new regulatory framework. I think I have heard you clearly 
say that.
    What request can this subcommittee expect for the 2011 
appropriations? What are you going to need to be able to carry 
out this fundamental restructuring of the three separate 
agencies and finally eliminate once and for all the corruption, 
the negligence, and the conflicts of interest that have cost 
our country and our taxpayers so dearly? What can we do to help 
you?
    Mr. Moran. Thanks, Ms. McCollum. And this is Ms. McCollum's 
first foray into the Interior Appropriations Subcommittee, and 
we welcome you, Ms. McCollum. Thank you. It is clear she is not 
going to be, as they say, a shrinking violet. And we welcome 
that.
    Mr. Secretary, after your response, we will conclude the 
hearing. Please, Mr. Secretary.

                           MMS REORGANIZATION

    Secretary Salazar. Thank you, Mr. Chairman. Thank you, 
Congresswoman McCollum.
    First, we have asked for the $29 million request, which 
Deputy Secretary David Hayes outlined, to be used for a variety 
of things, including additional inspectors and the 
investigations that are underway. As we move forward in this 
time frame where we are standing up the new reconstructed 
organization for the Office of Natural Resources Revenue, the 
Bureau of Ocean Energy Management and the Bureau of Safety and 
Environmental Enforcement, we will work closely with you to 
identify the resources needed to make sure the Department will 
have the robustness to accomplish the purposes you outlined.

                         DRILLING IN THE ARCTIC

    Finally, with respect to the comment you made about the 
Arctic, let me just say this: We know the sensitivities of the 
Arctic. We made very significant changes with respect to the 
proposed leasing programs and oil and gas development in the 
Arctic. The five exploratory wells that were to be drilled this 
summer, those predated what we were doing here. What will 
happen--I expect you will see the President's statement--is 
that there is a sense here, we need to learn the lessons from 
the Gulf and pushing a pause button is an important thing to 
do. I think in particular in the Arctic, because of the fact 
the oil spill response you have underway in the Gulf Coast 
today is the largest ever in the history of the world. I think 
when other oil spills have occurred, including Ixtoc I in 
Mexico or thousands of others, many of which have been as large 
or larger, much larger than this one, they have gone unnoticed 
to the rest of the world.
    I think one of the things you raise and which Deputy 
Secretary David Hayes addressed a few minutes ago is we really 
also need to look at this in the context of the oceans of the 
world because what happens with respect to the Arctic in Alaska 
is just a very tiny piece of the Arctic Circle where there are 
sovereign interests that--independent of the United States, 
obviously, because of their sovereignty--want to move forward 
with very aggressive programs in the Arctic, and it includes 
Russia, Canada, Norway, and other countries. In fact, that is 
why Secretary Clinton and I attended a meeting in Canada about 
a month and a half ago--about the need to really take a look at 
this issue even beyond the borders of the United States and the 
Arctic because we can take care, for example, of the Beaufort 
issues in the United States. Canada is right there, too. We can 
do it with respect to the Chukchi, but Russia is right there, 
too. One of the lessons I hope comes out of this is that we can 
also deal more with these issues on a global nature.
    Thank you very much.
    Mr. Moran. Very well done, Mr. Secretary, as we would have 
expected. Thank you as well, Mr. Hayes. You did a terrific job 
as well.
    This will conclude this part of the panel, and so you are 
free to go and to go back to advising the President on his 
statement this afternoon, Mr. Secretary. But the second panel, 
which will be the Environmental Protection Agency, the Fish and 
Wildlife Service, and Dr. Marcia McNutt, the Director of the 
U.S. Geological Survey, will begin as soon as we finish votes. 
My guess is that is probably going to be between 12:45 and 
1:00. We will be back in this room as soon as votes are 
concluded with the second panel, EPA, Fish and Wildlife, and 
U.S. Geological Survey.
    Mr. Secretary, thank you again.
    [Recess.]
                              ----------                              --
--------

                                            Thursday, May 27, 2010.

  BP-TRANSOCEAN DEEPWATER HORIZON OIL DISASTER: ONGOING RESPONSE AND 
                         ENVIRONMENTAL IMPACTS


                               WITNESSES

BOB PERCIASEPE, DEPUTY ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY
TOM STRICKLAND, ASSISTANT SECRETARY, FISH, AND WILDLIFE, AND PARKS, 
    U.S. DEPARTMENT OF THE INTERIOR
DR. MARCIA McNUTT, DIRECTOR, U.S. GEOLOGICAL SURVEY

                          Remarks of Mr. Moran

    Mr. Moran. I think we are going to start the second panel 
right now because I know your time is very valuable, and we 
want you to be back on the job as fast as you can, but we do 
need to get your perspective on what is currently going on.
    We have Bob Perciasepe, the Deputy Administrator of the 
Environmental Protection Agency; Tom Strickland, the Assistant 
Secretary of Interior and head of Fish, and Wildlife, and 
Parks; and Dr. Marcia McNutt is the Director of the U.S. 
Geological Survey.
    Why don't we go from left to right? We will have each of 
you make a statement and then we will get into questions, 
rather than making any initial statements on our part, unless--
did you have a statement you wanted to make, Mike?
    Mr. Simpson. I have been trying to get you to go from left 
to right for so long.
    Mr. Moran. So maybe we will start with Mr. Strickland and 
go from right to left, just for Mr. Simpson's edification. No, 
I think we will--Bob, if you want to tell us the role that EPA 
is playing. And after we hear the opening statements, we will 
get into the questions.
    Go ahead, sir.

                   Opening Remarks of Bob Perciasepe

    Mr. Perciasepe. Thank you, Chairman Moran and Ranking 
Member Simpson and also Chairman Dicks. And thank you all for 
inviting me today.
    I think I would be remiss if I didn't start by just 
remembering how this whole event started and the fact that we 
lost 11 lives at the beginning and that we should express our 
condolences to the families who lost their loved ones.
    We all know that efforts by BP to stop this spill are still 
continuing. And while the environmental disaster in the Gulf of 
Mexico that we are facing right now has no easy answers, the 
EPA is committed to doing its job, protecting communities, the 
natural environment, human health from the spill itself, as 
well as concerns resulting from the response to the spill.
    Since the crisis began, the EPA has nearly 200 staff 
working on emergency response, from scientists, engineers, 
contractors, and others in Alabama, Florida, Louisiana, and 
Mississippi. We are performing rigorous testing and monitoring 
of air and water quality and are sharing that data with the 
public every day.
    For nearly a month, EPA has been monitoring the air and 
water for pollutants which could pose a risk to human health 
and to the local communities. This monitoring is essential to 
ensure that communities are protected as we respond to the 
spill. All of this information is being made public on EPA.gov/
BPspill as quickly as possible and as quickly as we can compile 
it.

                              DISPERSANTS

    One of our top priorities is the safe application of 
chemical dispersants. Oil spill dispersants are chemicals 
applied to spilled oil to break down the oil into small drops 
below the surface. Ideally, the dispersed oil mixes into the 
water column and is rapidly diluted and then degraded by 
bacteria.
    We know that dispersants are generally less toxic than oil, 
they decrease the risk to the shoreline and to organisms at the 
surface, and they biodegrade over weeks and not years, as oil 
may. But in the use of dispersants, we are faced with 
environmental tradeoffs. The long-term effects on aquatic life 
are still not completely known, and we must make sure that the 
dispersants used are as nontoxic as possible.
    To date, BP has used about 850,000 gallons of dispersant, a 
volume that has never been used before. Since this crisis 
began, the EPA has not only demanded but has ordered, using the 
full force of the law, that the dispersants be limited in use, 
volume, and toxicity.
    As this event has progressed, the approaches have continued 
to be modified. At the beginning, we were not using subsurface 
application, but, as the event continued, we were looking for 
more efficient ways to apply the dispersant so we could use 
less of it. And we went through some rigorous testing with BP 
to determine whether the subsurface application would work. We 
wanted to make sure that monitoring was in place above the 
surface to monitor what was happening. And once that was in 
place, we allowed the subsurface application to begin.
    As that has started, that has shown that we can be more 
efficient. Although today, as we are doing these other 
activities at the site, there is a variability in the amount of 
subsurface that is being used. But, as of the last few days, 
there has been very little surface application and mostly 
subsurface, and we have dramatically reduced the amount of 
dispersants that are being used.
    We are in a position with no perfect solution. As we emerge 
from this response, I want to commit to revisit the regulations 
surrounding how EPA prepares for response and particularly 
regarding the dispersant registration under the National 
Contingency Plan. I also want to commit to sharing the results 
with this committee as we review that and working with you to 
tighten those underlying regulations.
    We have requested $2 million for initial funding for a 
comprehensive, long-term study on the impacts of dispersants. 
This study would look at toxicity impacts over a broad range of 
aquatic and land species and shore species. We look forward to 
working with the committee to fully craft and fund that study.
    Since this crisis occurred over a month ago, I have 
personally traveled to the region. I have met with local 
community members, the fishing community, and government 
officials. It is clear that we are going to have a great deal 
of rebuilding to do, in terms of restoring this community. I 
urge that we do everything within our power to ensure a strong 
recovery for the future of the Gulf Coast.
    [The written statement follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Mr. Perciasepe.
    Just so that my good friend to the left of me doesn't get 
upset with the direction in which we are going, I think we will 
go to Mr. Strickland right now and then we will go back to Dr. 
McNutt.
    Mr. Simpson. The neutral approach.
    Mr. Moran. Yes. That is it.
    So, Tom Strickland, who is the Assistant Secretary of the 
Department and head of Fish and Wildlife and Parks.

                   Opening Remarks of Tom Strickland

    Mr. Strickland. I thank you, Mr. Chairman, and thank you, 
Ranking Member Simpson and Chairman Dicks, for the opportunity 
to spend a few minutes with you and answer any questions you 
might have.
    Let me start off as Bob did and say that the first level of 
tragedy was the loss of the 11 lives in the Gulf. I appreciate, 
Mr. Chairman, your acknowledgment. Our heart goes out to those 
families. I have my wife's family in Louisiana, and we actually 
have a connection through her family to some folks who know 
some folks involved. It is a very, very tragic thing at the 
very most personal and immediate level, and we don't want to 
lose sight of that.
    I have been down, as Bob has been down, many times. I have 
been down five times since the spill. Actually, I went to 
college in Louisiana. I have great history and connection to 
the area; I know it well. I spent a summer of my college life 
on a rig offshore of Louisiana, and so I know a bit about the 
circumstances and the situation that the workers were in. Our 
heart does go out to them.
    We are doing everything we can through all the resources 
that the Department of the Interior has and, as Secretary 
Salazar said, all the resources of the United States 
Government, to bring those to bear to deal with the issues of 
shutting the well down, dealing with the spill, and then the 
area that I will speak about for a moment here, dealing with 
the impacts of this on the wildlife and on the land.
    Let me give you a status report, because now the oil has 
begun to hit the land for about the last 2 weeks. As of this 
morning, the best measurement we had was about 101 miles of 
coastline has been impacted. A number of the miles have been 
barrier islands. One of the first areas to be hit was a 
wildlife refuge, Breton National Wildlife Refuge, the second 
wildlife refuge ever created, this one by Teddy Roosevelt. 
There is a very iconic photo of Teddy Roosevelt sitting on 
Breton Island--in fact, the only photo we have of him on a 
wildlife refuge.
    I have flown over that island and the Chandeleur Chain, 
which makes up that refuge, many times over the last several 
weeks, and the impacts have been very dramatic. It is a very 
important wildlife refuge. Right now, we have 3,500 nesting 
pairs of brown pelican at South Breton Island. So far, we have 
been able to boom that area and keep them from being affected.
    As of this point, the wildlife impacts, as we can measure 
them, have been fairly modest. That is not because the long-
term impacts are expected to be modest; it is just that 
retrieval of the birds and the fish right now--there is a lag 
time.
    I visited the wildlife recovery efforts that we have on the 
coast. We have over 700 Department of the Interior employees 
fully engaged in our efforts down on the coast. We have 32 
wildlife refuges in the Gulf of Mexico. We have eight Park 
units. We have 40 Federal assets, if you will, within the 
Department of the Interior that play key roles with our 
environment, recreationally and otherwise.
    I want to assure you that we are doing everything we can to 
protect those specific assets, to monitor the impacts of this 
spill, to be prepared to go after the responsible party under 
the law, under NRDA, for all damages to natural resources, and 
we have very good cleanup plans for all those lands. Beyond 
just taking care of the Federal estate, we are also working 
with the locals, the States and private parties, to help do the 
baseline assessment that will be so important as we go forward 
to make sure we do everything we can to restore this ecosystem.
    We expect there to be significant long-term impacts to 
wildlife and to the environment that will play out over a long 
period of time if history is a lesson, and I think it would be. 
We are still seeing effects of the Exxon Valdez spill. As Dr. 
McNutt will be able to speak to in a moment and, Mr. Chairman, 
you commented in your remarks, there have been some estimates 
now of the scope and size of this that make it clear we are 
dealing with a very large spill in a very ecologically 
sensitive area.
    While we are going to hold BP accountable for all the costs 
to the full extent of the law--and, in their case, they have 
acknowledged they will be responsible for every dime of impact. 
We interpret that to mean, and we will hold them to the fact, 
that this includes natural resources. To the extent we have any 
costs associated with this recovery, we will do our best to 
recover those directly from them. It is possible that some of 
our increased regulatory costs and response costs may not be 
able to be passed on, like you were pursuing earlier today, 
Congressman Simpson, regarding increased inspections.
    I wanted to leave the message that we are fully engaged at 
the Department of the Interior with the natural resources part 
of this. As the oil is coming onshore, we are doing everything 
we can to accelerate the cleanups, to make sure the cleanups 
are done in an environmentally responsible way that is 
responsible to the wildlife, to recover harmed wildlife and try 
and protect the wildlife.
    There is great public interest in what is going on down 
there with the wildlife. We have thousands and thousands of 
volunteers from around the country who want to help, and we are 
trying to do everything we can to engage those people.
    It is a robust level of engagement. We have the head of the 
Fish and Wildlife Service full-time down in Houma, Louisiana. 
We have the head of the Park Service full-time down in Mobile. 
We have the head of the Bureau of Land Management full-time in 
Robert, Louisiana. I am down there about every 4 or 5 days, 
going to all the incident command centers. We also just 
positioned the Superintendent of Everglades National Park to 
head our efforts in south Florida. We are fully integrated at 
the incident command.
    On issues like the barrier islands, the issues of the 
marsh, whether it burns or not and when, we are fully engaged 
with our scientists and our perspective to contribute to that. 
I do think there will be an announcement on the barrier island 
proposal later today. I may be in a position to shed some light 
on that here today.
    Thank you very much, Mr. Chairman.
    [The written statement follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Thank you, Mr. Strickland. I wish the media 
would give more recognition to the top personnel that are down 
there on the scene.
    Speaking of the media, you have been doing a good job, Dr. 
McNutt, in dealing with the media.
    And now we will hear from Dr. McNutt.

                  Opening Remarks of Dr. Marcia McNutt

    Dr. McNutt. Thank you, Chairman Moran and distinguished 
members of the Committee.
    The USGS is a broad-capacity research agency that is 
internationally renowned for bringing its science to bear to 
reduce the impacts of natural and environmental hazards. Since 
I took charge of this agency just about six months ago, I have 
had to deal with the earthquake in Haiti, the earthquake in 
Chile, the Asian carp invasion into the Great Lakes and the 
rivers around it, Eyjafjallajkull, and now this oil spill. It 
has been quite a ride, the last six months.
    Mr. Moran. A regular Calamity Jane.
    Dr. McNutt. Yes.
    Mr. Moran. I assume that there wasn't any correlation 
between your coming on the scene and everything disrupting.
    Dr. McNutt. At NOAA, they are calling me the master of 
disasters.
    Within days of this oil spill, USGS stood up our best 
mapping capabilities to help all of the agencies responding to 
this disaster understand exactly where the oil is and 
understand what it is doing. Because if you don't know where 
the oil is, how can you respond to it?
    You all have examples in front of you of the kinds of 
products we were turning out since very early on in the 
disaster. Using eyes in space and eyes in the air helps us to 
understand where the oil is. Working with our partner agencies, 
such as NOAA, we put together models that would predict where 
the oil might be going in future days; and to help understand 
the difference between thick oil, dull oil, and sheen, because 
emergency responders needed to know the difference between 
these kinds of oils because they all had different impacts on 
life at sea and life on the coastline.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    We found that, in the beginning days of the oil spill, 
resources were being spread too thin. It was important for 
people to know these different kinds of oil so that resources 
could be put where they were really needed and not where people 
thought they would be needed.
    In addition, at the USGS, we immediately marshalled what 
experience we had from prior spills. We even pulled 80-year-old 
scientists out of retirement who had worked on the 1969 Santa 
Barbara oil spill and downloaded from them what experience they 
had with that oil spill. We had significant capacity within the 
agency from the Exxon Valdez oil spill and learned what we 
could from them on the behavior of oil that was still in the 
environment decades later, the toxicity of that oil, lessons 
learned, what we wish we had known when that oil first hit the 
environment that we didn't know, and how we could have 
responded better.
    Based on that, for example, we learned of the importance of 
going out and sampling immediately, before the oil even hits 
the shoreline, so that we can characterize what every piece of 
wetland, what every beach, what the animal population was like 
before they are impacted, so then, when the oil hits, we can 
make a damage assessment that is grounded in reality of knowing 
what everything was like beforehand.
    All these lessons learned, we shared with our colleagues in 
Parks, in Fish and Wildlife, and with the Coast Guard, so 
everyone would understand exactly what needed to be done before 
oil hit. We shared protocols for water sampling, sediment 
sampling, biota sampling, so everything could be scientifically 
defensible and help people understand the difference between 
what were the standards that would be needed for a research 
paper versus what standards might need to be for standing up in 
a court of law. Those are very different standards.
    We also helped with scientific evaluation of State 
proposals, such as Bobby Jindal's barrier island proposal, 
helping to understand where sand might be mined that could 
actually be beneficial in his proposal, versus where sand might 
be mined that could actually do harm to the environment.
    In conclusion, the USGS will continue to work closely with 
Interior and other Federal and State agencies, as well as the 
private sector, in response to the BP oil spill.
    I personally have been down in Houston for the past three 
weeks, helping to coordinate a very broad Federal response down 
there. I have been in charge of the Flow Rate Technical Group, 
which just reported out this morning with new numbers for 
release. That has been a herculean effort, which we hope will 
very much help this broad Federal response.
    Without your recognition for the importance of the USGS's 
long-term monitoring and data collection, the USGS would not 
have the scientific tools, data, and information that have 
allowed our rapid response to the crisis.
    I thank you for the opportunity to testify before you 
today, and I would be pleased to answer any questions that you 
have.
    [The written statement follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Good for you. Thank you very much, Doctor. We 
have lots of questions. I will start with the EPA.

                          SUPPLEMENTAL REQUEST

    You have asked for $2 million. It comes up today when we 
mark up the emergency supplemental in the full committee. You 
wanted to research the impacts of the oil spill and the use of 
dispersants. We need to know how much EPA has spent to date. We 
really ought to get it onto the record.
    What are the costs of the three subsurface dispersant tests 
prior to approval and the application, the costs of the ongoing 
air monitoring, costs of ongoing water quality and sediment 
monitoring, including the analysis of particle size 
measurements? And is this all reimbursable by BP?
    Mr. Perciasepe.
    Mr. Perciasepe. Mr. Chairman, EPA has spent to date about 
$7 million. We fully expect that that is all reimbursable from 
BP.
    Mr. Moran. So do you give receipts, or do you just tell 
them, ``This is what it costs''? Is it a phone call? I mean, 
how do you do it?
    Mr. Perciasepe. There is a process through the unified 
command and the Oil Pollution Act. There is a trust fund that 
is set up, and that trust fund is where the reimbursement takes 
place.
    We are required to have a financial stewardship plan in 
place, which we have done. We have had it reviewed by our 
inspector general, and we have included all the comments that 
the inspector general has given us. So we will have the 
detailed records on this.
    This deals with two of our regional offices, the one out of 
Atlanta because we are mobilized in parts of the Gulf that have 
yet to be directly impacted but, as you know, people are 
preparing in case something happens there; and our office out 
of Dallas, which is covering Louisiana; as well as some 
expenses at the national level, including the contracting and 
the other employees that are doing the monitoring.
    So all of that together. The burn rate, as we sometimes say 
in the budget world, would probably be about the same as that 
going forward.
    Mr. Moran. Thank you.

                  DISPERSANTS AND ENDOCRINE DISRUPTORS

    Now, let's get into this dispersant a bit. We have applied 
about 850,000 gallons of dispersant as of today. Just on 
Monday, you and the Coast Guard decided to scale back the 
quantity of Corexit that you were applying. But in Britain they 
found, over a decade ago, that Corexit was negatively impacting 
crustaceans, snails, mollusks, and so on along the shoreline.
    You wonder, if they found that it was harmful a decade ago, 
why are we still using it in the gulf today?
    Mr. Perciasepe. Well, the way they look at dispersants in 
the United Kingdom is they are looking at rocky shores, and 
there are a different set of organisms in the rocky shores.
    And they also have different standards on how close to the 
shore that you would apply it. In the United States, you don't 
apply dispersants within three miles of the shore. In fact, 
most of these dispersants that have been applied either at the 
wellhead now or even in the aerial or off-ship application has 
occurred greater than 30 or 40 miles out to sea.
    Mr. Moran. Of course, you have tides, currents that you 
have to deal with.
    Are you confident it is not an endocrine disruptor, as we 
have been told it most likely is?
    Mr. Perciasepe. We know that there are some dispersants 
that may have decomposition byproducts that have been 
identified as potential endocrine disruptors. And one of the 
things we are in the process of evaluating as this event 
continues is to keep looking at that next level. First, let's 
apply the dispersants because of the long-term benefit of 
reducing the size of the oil particles so they can decompose 
more quickly and avoid some of the shoreline impacts that, 
thankfully, we have not yet had but, I agree with Tom, we are 
likely to have much more of. Now we have had ways to reduce it 
by using the sub-sea application.
    If this continues, for whatever reason, for a longer period 
of time, we are going to keep looking at additional measures we 
would take. So right now we have asked BP to look at it from 
their perspective, but we have our own scientists at EPA, 
collaborating with the rest of the Federal agencies, looking at 
all the different components of these different dispersants.
    Mr. Moran. Yes, that is good, except that a lot of people 
are asking, understandably, why are we doing it after the fact? 
After we poured 850,000 gallons in there, now let's check out 
to see whether or not it is toxic.
    Mr. Perciasepe. We don't believe the current dispersants 
that they are using have these problems.
    Mr. Moran. Well, I hope so. I mean, we are relying on BP to 
tell us that.
    Mr. Dicks. Would you yield just a quick----
    Mr. Moran. Yes, sure, I would.
    Mr. Dicks. Did they get permission to use this before they 
did it? There was some confusion. I have heard in the media 
that maybe they had just gone out and started using this and 
then notified you. Could you clear that up?
    Mr. Perciasepe. There is a National Contingency Plan that 
is in place in advance of any particular spill. In the National 
Contingency Plan, there are tools that are pre-identified in 
the plan, and one of those tools are dispersants, and there are 
a number of dispersants that are on that list. And all the 
authorizations to start using it, as the spill unfolds, are 
between the responsible party and the Federal on-scene 
coordinator. So those things occurred almost back at the very 
beginning of the spill.
    Mr. Dicks. Well, did they get permission to use this 
particular dispersant? Was it on the list?
    Mr. Perciasepe. It is on the list, yes, sir. Yes.
    Mr. Dicks. Okay.
    Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Dicks.

                         CLEAN UP COORDINATION

    I am going to ask one more question, Mr. Strickland, before 
I turn to Mr. Simpson. The cleanup--we were told that in many 
areas there is just no cleanup going on at all, that it is 
uncoordinated. I think we would like to know who is 
coordinating it. Who is in charge? Are you in charge?
    What is your assessment of the damage? We saw pictures on 
television this morning of thousands of fish, dozens of birds 
dead, washing up. And it is going to get much worse day by day.
    Are you concerned about the idea of burning the marshes in 
order to burn up the oil, Mr. Strickland?
    Mr. Strickland. Mr. Chairman, let me take those up in the 
order that you raised them.
    I was down earlier this week on the beaches at Port 
Fourchon, and I went along about a five- or seven-mile stretch 
of beach with the local parish representatives, with Coast 
Guard representatives. I actually watched the cleanup in front 
of me. I saw the areas that had been addressed, other areas 
that were yet to be cleaned up, and actually talked with the 
locals.
    I think you have heard Admiral Allen is in charge through 
the National Incident Command. All of us are coordinated and 
working through the leadership of the Coast Guard. I think the 
President is re-affirming that, as we speak, in his remarks in 
the Rose Garden. So Admiral Allen is in charge.
    We are embedded in the incident command structure in each 
of the centers. There is one in Miami, there is one in St. 
Petersburg, there is one in Mobile, and there is one in Houma. 
The overall incident command system is in Robert. I will assure 
this committee that the Department of the Interior has senior 
people, in most cases presidentially appointed, Senate-
confirmed people, in each of those locations that are there 
pretty much 18 hours a day. The interest and points of view of 
this Department are fully represented. EPA has broad 
representation, as do other agencies. These are decisions that 
are made by the incident commander, by Admiral Allen, with the 
input from us.
    What I saw on the beach and what we have heard subsequently 
is that there has been a process of standing up our onshore 
response. There were efforts announced today about having a 
Coast Guard representative literally in every parish where 
there is onshore activity--that is, on the ground, designated 
to work, to cut through some of the red tape and the delays 
that have been complained about.
    I think you are going to see an enhanced and more ready 
response on the ground. I think you are going to see, some of 
these areas are hard to get to. I was on a boat this week, 
going out into the bays. For some of these areas, it takes a 
couple of hours to get out to them. We are going to put barges 
out there, we are going to set up tent camps, which you are 
going to see, because we need a presence over a sustained 
period of time, because it is going to take a while for this to 
work through.

                               MARSH BURN

    Now, as far as the marsh issue, let me just speak to that 
quickly. I know that idea has been broached. It is my 
understanding no final decision has been made. It may be a tool 
in the toolbox that could be used at the right time, but there 
are questions about when to do it, and how to do it. We will be 
providing our perspective in terms of the potential impacts to 
wildlife.
    Mr. Moran. Thank you, Mr. Strickland.
    Yes, Mr. Simpson?
    Mr. Simpson. Thank you, Mr. Chairman.

                          DISPERSANT TOXICITY

    Mr. Perciasepe, I guess I am kind of surprised that the EPA 
doesn't already have the studies done on the toxicity of this 
dispersant. And you are asking now for $2 million in the 
supplemental to look at the long-term effects of this 
dispersant.
    You know, basically, I am not sure I understand why we are 
doing this and the benefit of it, other than it makes it look 
good. You don't see the oil on the surface as much when you 
disperse it.
    Is it environmentally more sound to have it hidden? I mean, 
you are not getting rid of it, just breaking it up into little 
droplets. Is that right? And it is below the surface. It is 
still environmentally a problem, isn't it?
    Mr. Perciasepe. Yes, I want to be really clear. Using 
dispersants is the, perhaps, better of very bad choices when 
you have this kind of an event.
    Mr. Simpson. If you disperse it, does it make it harder to 
clean it up?
    Mr. Perciasepe. When you disperse it, it makes it easier 
for the natural processes to degrade it and digest it, so to 
speak, into the ecosystem. It increases the biological 
activity. And that is one of the primary intents here, is to 
increase the biological activity, keeping more of the oil, if 
it is possible to do that--and that is one of intents here, as 
well--offshore.
    In this environment that we are in, in the Gulf of Mexico, 
they are all sensitive ecosystems, but the coastal wetlands are 
the most sensitive ones and are like nurseries for the whole 
ecosystem. To the extent that we can allow that biological 
degradation to happen offshore, there will undoubtedly be some 
impacts out there, but it will reduce--that is the intent; that 
is the hard choice we are trying to make it here--it will 
reduce the impact on the onshore sensitive nursery areas for 
many of the species in the Gulf.
    So it is that tradeoff that we are making. And I think we 
should recognize that it is not a zero-sum tradeoff where, if 
you do this, nothing bad happens. It is, something bad can 
happen, but it will be less bad than if you don't do it.
    And, in terms of the long-term study, I think we have 
mentioned several times that this is the largest amount of 
dispersants that we have ever used in the United States. I 
think there may have been more used in the Mexican leak, but I 
don't recall the details of that. But, certainly, the 
opportunity to understand for the future and to maybe even 
adjust our regulations and the tests that are done on our 
regulations to put products on lists for different kinds of 
spills can probably be well-informed by being able to go in and 
get some university scientists involved with looking at that 
long-term view.
    So I think we have to be in the moment and make these 
decisions to reduce the overall impact, recognizing it is going 
to happen. We have a lot of oil in the Gulf of Mexico right 
now. But that we can't turn our eye away from the ability to 
learn from this just how we do things in the future. So it is a 
little bit of both of those.

                          SUPPLEMENTAL REQUEST

    Mr. Simpson. Okay. Well, I appreciate and support the 
efforts that you are doing in terms of doing this long-term 
study on the impacts of this.
    As a budgetary question and as an appropriator, I would say 
that--you are asking for $2 million in the supplemental 
appropriation to do that. You have a $9 billion unfunded 
obligation in the current EPA budget. It seems to me that, with 
that sort of unfunded obligation, if this was a priority, you 
wouldn't wait for the supplemental, you would do it.
    Mr. Perciasepe. Well, at this time of the fiscal year, 
particularly for a budget like EPA's, which I think we have 
spent time in our regular budget and appropriation hearings 
talking to you about, a large amount of our budget are funds 
that are grants that go to States, tribes, or Superfund 
projects. And there is definitely a lag in some of those funds 
getting out at this point in the fiscal year.
    A significant amount of that $9 billion that still is yet 
to be obligated this year is oriented toward those things that 
usually gets obligated by the end of the year. Probably over 60 
percent of it is. The rest is the normal, or very close to the 
normal, burn rate of our regular budget.
    So, whether it is $9 billion unobligated or not, you are 
really talking about reprogramming some funds in the agency. 
And we are suggesting----
    Mr. Simpson. Could be done today.
    Mr. Perciasepe. Because something would not get done. It is 
not like that money is available from something you have 
already, in your capacity in the committee here, approved for 
us to do.
    So, I would think that is the choice. We are suggesting 
this additional money will enable us to have that kind of 
independent view. I know that BP has put forward a large sum of 
funds to do research, but we feel it is appropriate, along with 
the USGS and others, to be able to have the ability to have 
government-funded studies here that are not being funded by the 
responsible party.
    The other part is, if we try to use the trust fund money 
right now, we are really interested in the trust fund money all 
going to the response to the spill. So those are some 
additional reasons why we have asked for the $2 million 
authorization here.
    Mr. Simpson. And I appreciate that. In a budget as big as 
the EPA's and the huge increases that occurred over the last 
year and a half, I would suspect that, with the priority that 
this is, you could find the $2 million somewhere. It could be 
reprogrammed today and be done. This is $2 million. That is not 
a whole lot in the whole scheme of things.
    But I appreciate what you are trying to do, and I agree 
with what you are trying do. I am not trying to throw cold 
water on it. I am trying to say, you know, we are appropriators 
and also have to worry about the budget.

                   IMPACT OF NATURAL RESOURCE LOSSES

    Tom, let me ask you--it has been mentioned both by the 
Secretary and by you that BP is going to be held accountable to 
pay for the environmental damage. If you lose a wildlife refuge 
like Breton Islands National Wildlife Refuge, what is that 
worth? How do you put a value on that?
    Mr. Strickland. Well, Congressman Simpson, you can't put a 
price on something that plays an essential role in the 
ecosystem. There are millions of migratory birds that come down 
to the Gulf Coast. It plays an enormous role in the ecosystem 
of the Western Hemisphere.
    There are ways to monetize, if you will, damages per bird 
and that sort of thing. We will take advantage of those to get 
the maximum return and compensation. There are things we will 
do to try and rebuild the populations.
    At the end of the day, your question raises the very valid 
point that these are treasures, these are natural resource 
treasures, environmental treasures, that are irreplaceable. As 
we have seen with the Exxon Valdez, there are still 
implications up in Prince William Sound 20 years later of 
environmental impacts and a herring fishery that is basically 
gone.
    We are hoping that we can manage through this. The fact 
that this was 50 miles offshore does allow for what Bob was 
talking about. There has been a lot of weatherization of this 
oil as it moves those 50 miles. It took several weeks for the 
oil to first hit the coast. There are very aggressive efforts 
to hit it with dispersant, to skim it, to burn it. Some of the 
data that Marcia and her team reflected indicated that a great 
deal of evaporation and other diminishment of that oil occurred 
in that journey. Then it becomes less volatile through the 
natural weathering process and less toxic to living things so 
that, by the time it gets to the shore, it is different than if 
this had occurred right at or near the shore.
    But be that as it may, I am not here to downplay the 
impacts. They are significant. They are visual. I was in the 
wildlife recovery area and saw the oiled pelicans. It is 
heartbreaking, and these landscapes are irreplaceable.
    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Simpson.
    Mr. Dicks.
    Mr. Dicks. Thank you.

                            PROTECTIVE BOOMS

    I can't help but say I have noticed Governor Jindal is 
repeatedly on television down there, saying that they still 
don't have enough of the protective booms.
    I assume that is the responsibility of the incident 
commander and the Coast Guard. Or how does that work? And why 
is it that he seems to be dissatisfied with the way this is 
going?
    Mr. Strickland. Chairman Dicks, if you would like, I can 
take a crack at that----
    Mr. Dicks. Yeah.
    Mr. Strickland [continuing]. Because I have been down there 
in some of the meetings where this is playing out. Every 
Governor along the Gulf Coast, understandably, wants their 
State to be boomed to the maximum extent possible.
    Mr. Dicks. Do we have these booms somewhere?
    Mr. Strickland. We don't have enough boom to respond to 
every request that is out there. We have moved in boom at as 
fast a rate as we can. Boom is being manufactured at as fast a 
rate as it can be.
    The incident command, to your point--you are exactly right. 
There is a centralized process for that. There is a 
prioritization that starts from the bottom up. We started by 
booming the most sensitive areas, environmentally, to try and 
keep it out of the marsh and the wetlands and off of some of 
the key areas. Some of the coastal areas were seen as barriers 
and some of the islands were seen as barriers that could 
actually stop the oil and you could clean it up.
    It is a bit of a triage system. It is a huge coastline. 
There is not nearly enough boom in the world to boom the whole 
coastline. We started with the most sensitive areas. 
Understandably, I think any of us in Governor Jindal's position 
would be seeking as much as we could possibly get. He is doing 
that, and we are trying to give him as much as we can. We are 
starting with the most sensitive areas first.

                              DISPERSANTS

    Mr. Dicks. Mr. Perciasepe, at the House Transportation and 
Infrastructure hearing--the chairman got into this, but I want 
to get to this point--there was a statement made that EPA 
basically conceded that there is no known information available 
on alternatives to Corexit and that basically what EPA did was 
just accept the statements of the companies involved about 
these dispersants rather than doing its own independent 
research. Is that correct?
    Mr. Perciasepe. No. The Corexit and a number of other 
dispersants are on a list that is in the National Contingency 
Plan.
    Mr. Dicks. Were they tested by EPA?
    Mr. Perciasepe. Yes. Well, they are tested by the company 
when they submit the application to be put on the list, but 
the----
    Mr. Dicks. So we just accept the company's word?
    Mr. Perciasepe. It has to be from a lab that is certified.
    Mr. Dicks. Okay.
    Mr. Perciasepe. They can't just submit numbers. It has to 
come with all the credentials that follow the----
    Mr. Dicks. Of a recognized laboratory.
    Mr. Perciasepe [continuing]. Formal scientific process, the 
test methods that were performed. They are looked at for both 
their effectiveness to do the dispersing and also for their 
toxicity. The toxicity test is done on a relative basis between 
oil, so between a distillate.
    So, yes, there is a defined, normal process for certified 
labs that have to be used.

                        SPREAD OF THE OIL SPILL

    Mr. Dicks. Now, there has been some concern that the spill 
is going towards the Gulf states now. What about Florida or 
coming up the east coast of the United States? What is the 
possibility of that?
    Mr. Moran. I am glad you have asked Dr. McNutt this 
question. Incidentally, she just came from the incident 
disaster center. She hasn't had a chance to testify before the 
Congress yet because she has been down there,and she flew up 
just for this hearing. She has the most current information.
    Doctor, thank you.
    Dr. McNutt. Thank you for that question.
    There is, of course, concern about oil getting into the 
loop current, at which point it could go around Florida, it 
could get into the Gulf Stream----
    Mr. Dicks. The Keys, I take it, the whole thing?
    Dr. McNutt. Absolutely. Of course, there is concern that 
this could eventually become not just a national incident but 
an international incident by impacting other nations that are 
in the Caribbean and perhaps even as far north as Bermuda.
    One thing we have been doing, of course, is monitoring the 
oil as it has moved. From a study by the AVIRIS instrument, we 
did notice some heavy oil that was entrained at one point in 
the loop current. But then a counter-eddy from the loop current 
actually grabbed that piece of oil and rotated it right back 
out of the loop current almost as quickly as it got in. That 
shows it is possible for heavy oil to get in the loop current, 
and it probably is only a matter of time until more oil does 
get into the loop current.
    I stood up a team of scientists who are looking at various 
scenarios, just as the one that you mentioned, to see what are 
the prospects, at what time scale do they play out, what are 
their consequences, and how do we look at the impacts of them 
and then make recommendations to people like Tom Strickland, 
Jon Jarvis, and other senior managers so they can work with the 
affected parties at messaging how we will respond to those 
scenarios.

                               MARSH BURN

    Mr. Dicks. One final question to Tom.
    On this question about burning the refuges, I would hope 
you would take appropriate time to do whatever studies you have 
to do here or to get the best advice, because I think that is 
something that should be carefully considered.
    Thank you.
    Mr. Strickland. Mr. Chairman, yes, we will do that.
    Mr. Moran. Thanks very much, Mr. Dicks.
    Ms. McCollum.
    Ms. McCollum. Thank you.
    I want to ask two questions here. One is on baseline.

                          BASELINE ASSESSMENTS

    The baseline assessments that you started, I would like to 
know from Fish and Wildlife, do you see that as being part of 
the new protocols, the new regulations, so if something like 
this happens we have a reservoir of information available to 
us? And, if so, how would that happen?
    Mr. Strickland. Well, thank you for that question, 
Congresswoman McCollum.
    The fact is that we have been trying to do those 
assessments with respect to those refuges that are most 
immediately at risk. We have done them for all those that are 
immediately at risk. We are finishing them up for all of our 
assets along the coast. We have been able to complete them all, 
I think, for the Park Service.
    The Gulf Islands National Seashore, in particular, has 
maybe 90 miles of coastline along Mississippi and Alabama and 
part of Florida. I know they have finished their assessment.
    In terms of having the resources to do those as just a 
regular matter of our business, we would love to be able to 
have that kind of information on a regular basis. Now, this 
committee has been very good about supporting additional 
science capability. With our Climate Change Science Centers 
that will be working with Dr. McNutt and our Landscape 
Conservation Cooperatives on the ground, the whole point of 
that effort is to do better sharing of information, not just 
Federal, but State, Federal, NGO information, so we have really 
good information to deal with climate change, to deal with 
these kinds of impacts down the road.
    It is something we want to do more of. Out of all of this, 
we would hope that we would do more than just deal with the 
effects of the spill, but also help restore this ecosystem, 
which has been very much manhandled by humans for sometime, and 
nature, because these hurricanes have had a huge impact.

                      ARCTIC BASELINE ASSESSMENTS

    Ms. McCollum. So, taking that up north into the Arctic and 
from the conversation that this committee had with Secretary 
Salazar where there are other nations involved--Russia, Norway, 
ourselves, and Canada--do you know, internationally, if you are 
looking at how to come together and do baseline measures for up 
there?
    Mr. Strickland. I think Dr. McNutt should----
    Dr. McNutt. Yes. Actually, even before this oil spill 
happened, the Secretary of the Interior had tasked the USGS to 
take a look at the impact of potential oil development on the 
Arctic and whether it was appropriate; and, if so, what sort of 
baseline science would need to be done before any development 
could take place.

                              REGULATIONS

    Ms. McCollum. Okay. My time is going to be limited, so I 
thank you, but I have a little bit of a follow-up.
    One of the things that I had mentioned to Secretary Salazar 
was that right now, the oil companies, determine the 
environmental impact. Are you going to be part of the 
discussion, the weigh-in, as the new regulations are being put 
forward? Do you anticipate you will have a place at the table?
    Dr. McNutt. Absolutely.
    Ms. McCollum. Okay. Thank you.

                          ENDOCRINE DISRUPTORS

    To the EPA, I am a little confused here. Help me. Did I 
hear you right, you don't believe that there are endocrine 
disruptors that we should be concerned about or even in the 
product that is being applied? You don't believe, or you don't 
know, or you don't think, or you do know? What is it?
    Mr. Perciasepe. Based on the information that we have, the 
byproducts of decomposition of the currently used dispersant do 
not have the same endocrine disruptor byproducts that some of 
the other ones might have. And we have a team of scientists 
right now looking at that in more detail.
    Since this event has occurred--you know, the normal 
sequence of events with dispersants is you have a spill and you 
apply dispersants.
    With this, we have this long-term situation here where the 
volumes keep going up. So we are reducing the volume. And the 
next step we are taking, if we need to continue to use them, is 
if there is any differentiation between these in terms of the 
byproducts because these dispersants decompose after a couple 
of weeks to maybe a month. That is what we are looking at, what 
happens when that occurs.
    Ms. McCollum. But endocrine disruptors are emerging as 
being concerns. So there isn't as much science on that as we 
would like to have.
    Mr. Perciasepe. Right. That is correct.
    Ms. McCollum. In fact, when we did a bill last year on the 
House floor, an amendment that I offered pretty much passed 
unanimously to have institutes of higher education become more 
actively involved in emerging contaminants of concern in our 
waters.
    So my question still goes back, then: What do you see the 
EPA needing to do with endocrine disruptors?
    Because I am concerned not only when it hits the shore, but 
as these dispersants are falling down into the water offshore--
which I understand where you think that that has somewhat of a 
positive effect--there is still sea life that is swimming 
through this stuff, and gill structures, and absorbing things 
through skin and flesh of these fish and other marine 
creatures. They also have the possibility of being affected by 
these endocrine disruptors.
    Are you going to be putting together something to ask this 
Congress to do more for you to really get out ahead of these 
emerging issues of concern with the endocrine disruptors? I 
don't mean this as a criticism of you personally. You are 
speaking to me factually. but you don't believe, you don't know 
exactly the consequences of these chemicals?
    Mr. Perciasepe. Right.
    Ms. McCollum. You don't think, because that is the 
information in front of you.
    What do you need so that you can answer that question more 
directly in the future? What is our role to make sure you can 
answer that question?
    Mr. Perciasepe. There are a couple of things. First of all, 
we are going to need to change the way we allow dispersants and 
other products that are used in emergency situations like this 
to be on the list to be used under the National Contingency 
Plan. How they got on that list was based on whether they work 
or not and then some very relatively rudimentary toxicity 
tests, which is something but it was not robust. It did not 
include looking at all these byproducts it will decompose to.
    Now we have a situation where this thing is going on for 
over a month now. It could go even longer. This kind of 
situation was not really taken into account when those tests 
were created in the past for these products. So, going forward, 
we are going to need to have a different way and we are going 
to have to revise our regulations on how we decide what should 
be available in order to react when we have an emergency like 
this.
    Right now what we are trying to do, as this thing continues 
to go on, is learn as much as we can with our existing science 
team as to what we can determine from these chemicals now. So 
we may still--and we have already told BP that we would do 
this--we may still ask them to absolutely switch if this is 
going to go on for a long period of time. Our science review 
that is ongoing right now--we are not going to rely on BP; we 
are also doing our own. If that shows that we have any more 
concern along these lines that we can tell from the information 
we have now--which we do have the list of the chemicals that 
are in these products under the agreements that we have--we 
will take further action.
    So that is where we are right now. Part of the idea, also, 
of the $2 million we are asking this committee for--and I 
recognize the budget issues related to it--is to begin that 
process of how would we look at how this all unfolded and what 
we could we learn from it for how we do this in the future so 
that we are better prepared for a long-term event as opposed to 
a short-term, low-volume usage. So, yes, we absolutely have to 
make those changes in the future.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Moran. Thank you, Ms. McCollum.
    Mr. Olver.
    Mr. Olver. Well, thank you, Mr. Chairman.

                              DISPERSANTS

    If I could start anywhere let me start with the EPA, a 
little bit more on the dispersants.
    There is some question about what real alternatives are 
there? We have used large gallonages of the Corexit, and that 
seems to be manufacturable fairly quickly. But what is the real 
availability when you speak about being able to switch to 
others? I have seen some indication that there are very limited 
other dispersants that are there, and the storage of those, the 
availability, essentially, on the shelf, and the capacity to 
manufacture more, each one must be limited.
    Do you have a whole list of these things that would do the 
same sort of thing, that you could begin to make decisions from 
or not?
    Mr. Perciasepe. Yes, there is a list of dispersants. They 
all have different characteristics. They are all, more or less, 
effective. There are definitely issues of availability with all 
of them, and the ability of the manufacturer to produce them in 
the volumes that might be needed.
    One step we have taken this week: By being able to rely 
perhaps more on the subsurface application, where you use a lot 
less than the surface application, which, you might imagine, is 
being applied by plane, has to be spread over a large area to 
get the oil you need, you are necessarily, in all likelihood, 
using more than you need to use. So if we move to a point where 
we can be as effective using less, it opens up doors for other 
potential products.
    But, right now, we are in the middle of looking at all of 
the science that we have and looking at the constituents of 
these, and we have not gotten to the point where we would take 
another step on that.
    Mr. Olver. What happens to the oil if you disperse it 
subsurface? Where is it dispersed to? What are the oil plumes 
that are being talked about, columns of oil and so forth on the 
shore? You see pictures or at least--I am not sure what I am--
imaging.
    Mr. Perciasepe. NOAA and others are out there looking at 
those plumes and where they are. Most of those plumes are thin 
and small particles.
    And let me just say, when we test inside the plumes for 
dissolved oxygen, we see dips in dissolved oxygen, not to any 
dangerous, low level, but we see enough dip that we know 
aerobic digestion has taken place. Because the bacteria that is 
attacking the oil in those plumes is dipping the dissolved 
oxygen.
    So what we are hoping, with the bad choices that we are 
presented with here--and this was one of them that we have 
decided to move on--is that that biological activity will be 
increased by the increased surface area of all the many small 
particles and that that oil will degrade a lot more quickly 
than it would if we hadn't done it. That is the objective. That 
is what we hope to do. And that degradation of the oil will 
continue wherever it goes in that ecosystem.

                            PROTECTIVE BOOMS

    Mr. Olver. Okay. Let me ask, how many miles of booms are 
there now?
    The Gulf Coast National Seashore, is that boomed?
    Mr. Strickland. Congressman Olver, as of May 27th, the 
deployed boom in feet is 1.875 million feet of deployed boom.
    As far as the National Seashore is concerned, the key 
strategic areas of it are boomed. It is actually the backside 
of those islands that are the most fragile because that is 
where the marshes are. You can actually remove the oil from the 
front side, and you can't effectively deploy boom, a lot of 
time, where there is surf because it won't stay deployed.
    There is almost 2 million feet of boom that has been 
deployed throughout the Gulf area.
    Mr. Olver. Would it be 400 miles? Is that roughly what that 
would be?
    Mr. Strickland. Well, divide that by 5,000. So, if somebody 
could help us with that.
    Mr. Olver. I guess that is around 4,000 miles. Is that 
deployed----
    Mr. Moran. Four hundred miles.
    Mr. Olver. Four hundred?
    Mr. Moran. Well, what is one digit among friends? But I 
think it is 400 rather than 4,000.
    Mr. Strickland. Congressman, to your point, it depends on 
the area. In some areas, I can tell you, having just flown over 
it again earlier this week, there are stretches that are 
openings in the marshes of wetlands. Those are fragile areas, 
and those are high-priority boom areas. They are the backside 
of some of the barrier islands, where there are nesting areas 
and marshes and cane that are growing.
    There are large stretches of the coast that aren't boomed. 
In fact, boom doesn't work everywhere.
    Mr. Olver. Okay, we are having trouble getting the booms. 
They are being manufactured. I heard that earlier.

                             SPREAD OF OIL

    It is fascinating. I try to gather lots of information from 
maps, and I am trying to see if I can follow these maps. The 
actual COMSAT, LANDSAT maps are interesting, but I can't really 
tell where the oil is. By the time you get to the 24th of May, 
it looks to me as if this oil is over a huge portion of the 
Gulf of Mexico, although that must be just my misinterpretation 
of where that goes.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Dr. McNutt.
    Dr. McNutt. You know, we don't actually use LANDSAT for 
mapping.
    Mr. Olver. This was in the packet that came from USGS that 
was on my table as information coming from USGS.
    Dr. McNutt. Yes. The LANDSAT can be used for some visual 
work. Usually we use that for the land side, but we don't 
actually use that for mapping on the ocean. There are far 
better tools.
    Mr. Olver. Well, I am looking at that. But, in fact--for 
the unpracticed eye--probably someone who has used these things 
would immediately know what they were looking at. But for the 
unpracticed eye, which most of us are, to see what the spread 
of the oil slick has been over the surface over the period of 
time since we have had a month to do that, a graphical picture 
of that, these are really tough to see.
    It looks as if there is some oil now reaching land at the 
west end of Louisiana, which is a couple of hundred miles west.
    Dr. McNutt. Well, this is why we produce interpreted 
products like this that we think are more useful. For the 
untrained eye, we believe that with the interpreted products, 
the analysts can take input from a variety of sources, whether 
they are synthetic aperture radar, or whether they are AVIRIS 
flight with infrared imagery. They take a variety of sources 
and give a product that helps give the outline of the oil, 
thickness of oil, and helps people who are not practiced in 
interpreting satellite and airborne imagery a better idea of 
what they are looking at.
    Mr. Olver. Well, since there is no code on this map that 
you were holding up, maybe you could tell me what the navy 
blue, the royal blue, and the sky blue, essentially, are. There 
is a robin's egg. And then there is a whole bunch of these 
barrier islands that look as if, from some of these maps, as if 
they have oil right against them. But that certainly doesn't 
show from this map that you were referencing.
    Dr. McNutt. The red areas on that map show where, as of 
that date, the oil was already ashore. The red areas are the 
area where oil has already impacted.
    Mr. Olver. What is the date of that map? That doesn't show 
either.
    Dr. McNutt. This was May 20th, Thursday, May 20th, a.m.
    Mr. Olver. Ah, 20th, a.m.
    Dr. McNutt. Yes.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Strickland. Congressman, if I could intervene, we just 
put up there--you have that in front of you, as well, a smaller 
version of that. This is a daily oil impact assessment report 
that we help generate out of Interior.
    Mr. Olver. The oil is all of those darker blues.
    Mr. Strickland. Well, it is coded. So red is heavy, yellow 
is moderate, green is light.
    This one right here. If I could just shift over here. This 
map has been crosschecked with actual overflights and people on 
the ground.
    Mr. Olver. Yeah, I can see that map. But the other one 
looks as if oil is spreading out a good deal farther. The one 
that was really raising my alarm was the LANDSAT map from the 
24th of May, which shows, as best I can see, what is a kind of 
a----
    Dr. McNutt. You may be looking at clouds.
    Mr. Olver. I don't believe that. I don't believe that. The 
LANDSAT of the 24th of May?
    Dr. McNutt. Let me see.
    Mr. Olver. That is one of these things that was right 
behind this--it was two from the end of this bunch of things, 
which the last two are schematics that show all of the coast of 
the U.S. and then the Atlantic coast. It is the last one before 
that.
    Dr. McNutt. Are you looking at this one?
    Dr. Olver. Yes.
    Dr. McNutt. Oh, okay. No, the colors are bathymetry.
    Mr. Olver. The colors are the symmetry? What does----
    Dr. McNutt. That is bathymetry. That is not oil. The dark 
blue is the deep ocean.
    Mr. Olver. Well, everything there looks very like the top 
of that second color of blue. Look, now, if you put these other 
ones there, I am seeing the shape of the top of that thing is 
exactly the same as this medium blue, not the navy, not the 
royal, but the--well, I don't know what I would call it.
    Mr. Moran. It is teal.
    Mr. Strickland. Aquamarine.
    Mr. Olver. Whatever. That one is the shape of the top of 
that thing, and yet exactly the same colors are spreading out 
much farther into the gulf.
    Dr. McNutt. This is the Yucatan Peninsula here.
    Mr. Olver. No, the Yucatan is the land below.
    Dr. McNutt. This is the offshore extension of it. This is 
bathymetry.
    Mr. Strickland. He is talking about the next one over, I 
think.
    Dr. McNutt. Okay, this is the oil spill.
    Mr. Olver. But this medium blue in there, which is the 
large mass of blue other than along the coast, is exactly the 
shape of the top of that very dark--that very dark on the other 
map.
    Mr. Moran. It is not the same location, though. Florida is 
much further removed than----
    Dr. McNutt. This is just right up in here. Here is the 
bird's foot.
    Mr. Olver. Oh, well. There is no point in our going through 
this this way.
    Dr. McNutt. Very different scale.
    Mr. Olver. I understand scales. I am sorry. It is very 
difficult to--I will let it pass.
    Mr. Moran. Well, it is a valid observation. The spread of 
the oil is outstanding.
    Dr. McNutt. It is maybe following the contours of the 
bathymetry, is that what you are saying, is that the spill 
seems to be following the contours of this right here.
    Mr. Olver. Exactly. Now you got it. That big thing--we are 
on a very different scale, a much larger scale on this map, but 
it is the top of that over against the----
    Dr. McNutt. But, you see, this is coming in here, which is 
not corresponding to any bathymetry here. So it is not exactly.
    Mr. Olver. There must be somebody that has a sense of where 
the oil is as it has been spreading. I would love to see what 
its spread has been over a period of these 30 days.
    Dr. McNutt. Yes. We could do a time lapse.
    Mr. Olver. Every 48 hours or something like that.
    Dr. McNutt. We could do a time lapse, definitely.
    Mr. Moran. Yes. And if we can get that to Congressman 
Olver.
    Mr. Strickland. Let me leave you the summary that NOAA 
produces every day. That shows Wednesday, Thursday, and Friday 
just this week. That is the spill, and you can see how it--I 
think that might get right at your point.
    Mr. Moran. John, do you want to move on? We will have one 
more round before we let these witnesses go.
    Mr. Olver. I will pass.

                        CREATING BARRIER ISLANDS

    Mr. Moran. Dr. McNutt, the commandant of the Coast Guard, 
Admiral Allen, just announced that he is creating a new barrier 
island. Now, I would like to ask you, what is the impact of 
creating these barrier islands?
    Because people have suggested we should create any number 
of them. But it seems to me that that has to have some profound 
and long-lasting effect on the ecology, the topology, and the 
environmental condition of the Gulf, if we start dredging and 
creating new barrier islands.
    Have you looked into this? And what is your assessment?
    Dr. McNutt. I understand the USGS has just produced a 
report that has gone through peer review. I have not yet seen 
the report.
    I know the proposal in its original version for dredging 
these barrier islands was deemed as one that would do more 
damage than good because of where the source of the sediment 
was to be brought in. I believe the report has said there are 
some places where the sand could be found and brought in that 
could actually be nourishing rather than produce erosion.
    So, under some limited circumstances, the project could go 
forward without causing damage.
    Mr. Moran. But it is not going to go forward without your 
approval, without input from you?
    Dr. McNutt. Well, USGS is not in a position where we 
actually can approve, but we can make recommendations on what 
we think scientifically would be a prudent approach to the 
project.
    Mr. Moran. Okay.
    Mr. Strickland. Mr. Chairman, if I could add, during the 
break, I was able to get updated information on the barrier 
island issue. What I understood from a very quick communication 
was that it was announced that the U.S. Army Corps is going to 
be approving a subset of the original request, kind of a 
preliminary approval, subject to--and I think it is half of 
what was originally proposed, but to do it in a phased way, and 
there would be one test project that could go forward.
    Even that project had to acquire the appropriate 
environmental permits, one of which would have to be regarding 
endangered species, and would have to come to Fish and Wildlife 
Service, and one from MMS, in terms of the material that they 
would have to take, which would require a permit for the sand.
    It is my understanding that what was announced today would 
be subject to review, to respond to your questions that you 
raised. We will provide that input and review.

                       DEEPWATER WELLS SUSPENSION

    Mr. Moran. Thank you.
    Now, one last question before I go to Mr. Simpson, and we 
will do this final round, and that will conclude it.
    I was just told--a lot is happening while we are sitting 
here. The President just announced 33 other deepwater wells 
will now be suspended.
    Once we get paid for this bill, at least the short-term 
bill, from BP, BP leaves the scene. I am sure they are going to 
have a signed document that all their legal experts will put 
together making sure it absolves them of any further liability. 
But it is going to be years to clean up this mess.

                              FUTURE COSTS

    We are told that BP announced a new $500 million research 
fund. I don't know whether the Federal Government gets any of 
that. But I would like to hear from the three of you, if you 
have made any assessment of future costs as a result of this 
that are going to have to be built into future budgets, whether 
it be the USGS, Fish and Wildlife, or the cleanup of all of the 
marshes and, of course, EPA.
    Do you have any estimate of the future costs?
    Mr. Perciasepe. I will start.
    I think it is fair to say that it is hard to put any kind 
of precision on this because, while the spill is under way, we 
still do not know the full extent of the damage, which was one 
of the reasons why the baseline is there, so we can look at the 
after-effect and what that cost would be.
    I am fairly certain that there will be ongoing expenses 
that EPA will have for monitoring and assessing, remediation 
and restoration plans as we go forward, at a minimum. But 
predicting the full extent of that, Mr. Chairman, will be 
difficult until we move through the full event here.
    Mr. Moran. Dr. McNutt?
    Mr. Perciasepe. I expect it will be ongoing for many years.
    Dr. McNutt. USGS is a science agency. I will tell you, 
there have been many times over the last few weeks when we have 
been asking ourselves, ``why are we faced with fundamental 
science questions that would help us respond to this emergency 
that we don't already have the answers to?'' We very much wish 
we did. I will tell you, we don't want to be caught in this 
position again.
    In fact, one of the reasons why BP has announced this 
large, half-billion-dollar fund is that I have had these 
conversations with BP as well. BP understands the need to put 
more money into research on the effects of oil in the ocean, 
the best way to prevent it from happening again, and knowing 
what to do when it happens.
    Believe me, USGS is going to have to put more effort into 
this. I don't have an exact figure. In our Coastal and Marine 
Geology Program, we need to put more effort.
    Mr. Moran. Thank you, Dr. McNutt.
    Mr. Strickland, do you have anything to add?
    Mr. Strickland. As of May 14th, we had spent around $7.0 
million. Of that, about $3.8 million we deemed to be 
nonrecoverable, and the rest came out of the oil spill trust 
fund.
    We don't have a long-term estimate, but there are 
mechanisms under the law where a certain amount of money can 
also be put in trust for evaluation after 10 years and some 
period of time. We are doing everything we can to address the 
immediate impacts and make sure we clean things up properly.
    One of the things we learned from Exxon Valdez is some of 
the cleanup strategies ended up sterilizing the environment. 
They came in with steam cleaners and steamed rocks and did a 
lot more harm than good. It really gets to, the message that 
Bob has been making, so we are very focused on that. We will 
keep the committee apprised of what we think this is going to 
cost short-term, mid-term, and long-term.
    Mr. Moran. Good. Good for you.
    Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    And thank you all again for being here today.

                      OIL AND GAS SCIENCE AT USGS

    Dr. McNutt, let me ask you, following up on the last 
question, I get the sense that USGS doesn't have a base program 
dedicated to oil and gas science and remediation, particularly 
since you are calling in 80-year-old guys out of retirement to 
look at what they had done in the past.
    Is that the case? And, if not, could you describe the 
program and whether this disaster has exposed any gaps in the 
program?
    Dr. McNutt. We do have an energy program, and we have an 
environmental program, of which there is always activity going 
on at a low level but nothing that is sufficient to take on an 
emergency of this effort. I think you are right to say that, 
after Exxon Valdez, there was a whittling away at this program 
that has been truly tragic, and we need to energize it.
    I organized, with the help of John Holdren's office at the 
Office of Science and Technology Policy, the week before last, 
a meeting of academic scientists in which we looked at what 
some of the questions would be of a program like this. It was 
amazing, at the fundamental level, some of the questions we 
didn't have answers to: about how quickly is oil taken up by 
microbes in the ocean, and is there any way to stimulate them 
to work faster? What effect does sunlight have on oil in the 
ocean? What is the long-term fate, what are the chronic 
problems of oil in the ocean? Basic questions like that that we 
need to know the answers to.
    Mr. Simpson. So can we expect that USGS will come up with 
some changes to the program to address some of these things?
    Dr. McNutt. Absolutely.
    Mr. Simpson. And we will be able to see that in----
    Dr. McNutt. We are writing the science strategy right now.
    Mr. Simpson. Okay, thank you.
    Mr. Moran. Will the gentleman yield for a moment?
    Mr. Simpson. You bet.

                           OIL SPILL RESEARCH

    Mr. Moran. It has been brought to my attention, there is a 
program in the Minerals Management Service entitled ``Oil Spill 
Research.'' And for the last 10 or 15 years, we have been 
putting more than $6 million into that account. Have we ever 
learned anything from all that?
    Dr. McNutt. Mr. Moran, I took a look at that program, and I 
would say the issue about that program is that it is 
administered on contracts, not really research grants. So the 
quality of the program, when you do a contract, what you get 
out is as good as the questions you ask.
    Mr. Moran. So we have been wasting about $6.3 million a 
year, one would seem to have to conclude from that. We have 
very little to show for it, it would appear.
    Dr. McNutt. I think the program could be more visionary and 
more strategic.
    Mr. Moran. All right. Well, I guess that is a diplomatic 
way of saying, what the heck are we doing that for?
    Excuse me. Please, Mr. Simpson. Thank you for the 
interruption.
    Mr. Simpson. Thank you.

                            DEBARMENT OF BP

    Bob, I read in some articles that the EPA is looking at 
discretionary debarment from BP. Obviously, the EPA and BP have 
some differences of opinion. I don't know whether to believe 
them or not, but they say that EPA is frustrated with the 
management of BP. And they are looking at, and have been 
looking at, BP for discretionary debarment because of past 
violations and so forth.
    Given that BP is the number-one provider of jet fuel for 
our military, the number-two provider of fuel to the U.S. 
Government, in terms of 1.5 billion gallons a year, what impact 
would that have on the contracts both with our military and 
with the Federal Government?
    Mr. Perciasepe. Well, I have to say that, Mr. Simpson, that 
is something that has been going on for quite a while, and I am 
not completely familiar with exactly where it stands. I would 
have to go and get some detail for that, to let you know.
    But obviously, you just laid out some of the issues that 
are involved with that. On the other hand, we have fiduciary 
responsibilities that I am sure that all of you would want us 
to----
    Mr. Simpson. Sure.
    Mr. Perciasepe [continuing]. Undertake when we are working 
with contracts and other grants that we are responsible for. 
However, I don't know the status of that.
    Mr. Simpson. And I am not criticizing. It might be a 
totally appropriate action. But there are considerations that 
need to be made obviously, when some action like this is 
contemplated.
    Would this be EPA doing this, or would it be the Department 
of Justice?
    Mr. Perciasepe. Boy, I think I am going to defer from 
answering. I believe it is the actual agency that does the 
contracting, that makes some of those decisions. But I don't 
know for sure whether the Department of Justice gets involved. 
I am a little bit out of my lane, as they say, there, in terms 
of having to be up to date on that particular aspect of it. 
But----
    Mr. Simpson. It would be interesting to know that.
    Mr. Perciasepe [continuing]. Why don't I get some 
information back to the committee on the status of that?
    Mr. Simpson. Okay. Because if EPA were to do a debarment of 
BP, I guess the question is, would it affect the military? 
Would they still be able to have a contract with the military 
in terms of jet fuel? I don't know, and that is why I ask. If 
you could get back to us, I would appreciate it.
    Mr. Perciasepe. Yeah, I would have to provide you with that 
information from a more knowledgeable base. I do know it is 
going on, and I know it has been going on for quite a while, 
but I don't know the exact status of it.

                 FWS ENVIRONMENTAL CONTAMINANTS PROGRAM

    Mr. Simpson. Okay. Thank you.
    Tom, there is a program within Fish and Wildlife Service 
that remains largely ignored and level-funded. Yet every time 
there is a major environmental disaster, the folks in this 
program are usually first on the scene. I am talking about the 
Environmental Contaminants Program.
    What is their role in this effort, and why are they not 
included in the supplemental request?
    Mr. Strickland. First of all, there is the ability, in the 
way the request comes in, for the Secretary to allocate that as 
it is ultimately deemed most effective, with the bulk of it 
going for strengthening the inspections program, of course. I 
think there is an understanding that some of this would go to 
the Fish and Wildlife Service.
    That part of our operation has been engaged and on the 
ground. The truth of the matter is, the Fish and Wildlife 
Service probably does more with less than any of the land 
resource agencies, when you look at the number of employees per 
acre they manage, the incredible responsibility that they have. 
I certainly would not argue against any suggestion that we need 
to bolster this program.
    Our Fish and Wildlife folks have come in from all over the 
country, from that program and others. We have refuge managers 
that have come down. I mentioned the head of the Fish and 
Wildlife Service, Rowan Gould, is on site. He hasn't come home 
in a month, and has been there in Houma. All of our resources, 
including from that program, are fully engaged.
    It puts a stress on the rest of our capacity to manage the 
rest of what we have. I would say that more broadly in the 
Department. We are entering the fire season. We know and you 
know, Mr. Simpson, the situation in the Rocky Mountains with 
the pine beetle kill. To the extent that our capacities are 
stretched further with respect to emergency response this 
summer--we know they will be stretched to some extent with the 
fire season; we just don't know how much. Everyone has been 
holding their breath that we have avoided a catastrophic fire 
season, with all that fuel out there. That will have additional 
impacts on our Park Service, on our Fish and Wildlife, and on 
our BLM employees.
    We are trying to staff for the long haul because we know 
this is going to be a long engagement down on the gulf coast, 
but we have other business to do as well.
    Mr. Simpson. Appreciate it. Thank you.
    Mr. Moran. Thank you, Mr. Simpson.
    Mr. Olver.
    Mr. Olver. I will pass. Thanks.
    Mr. Moran. It is the last series of questions. We would 
like to hear from you if you have any further questions on your 
mind.

                  DISPERSANT TOXICITY AND APPLICATION

    Mr. Olver. Well, to go back to the EPA, what do we know 
about the toxicity for workers who are using these dispersants? 
Do we know much about the toxicity and the variation of 
relative toxicity of the different dispersants?
    Mr. Perciasepe. From that perspective, Mr. Olver, they are 
pretty similar. They are surfactants, and they are propylene 
glycols. For those who don't know what those words are, 
surfactants are like heavy-duty soaps. I think I got that 
right. Just checking my science partner over here.
    The propylene glycol, I think, is the same material that is 
used in some de-icing of airplane wings. And if you have ever 
been in an airplane in cold weather and they are de-icing your 
wings, the guys that are out there have respirators on. So it 
is a lung irritant. It could be a skin irritant. And workers 
are advised and trained to wear proper equipment.
    Usually, under the current circumstances, the handling 
takes place in loading it into the airplane for spraying, and 
pilots are obviously inside the airplane. But, currently, with 
it being applied at the subsurface, it is being applied by 
robots. So we are in better shape in that regard.
    But the dispersants are not likely to be making it the 40-
mile trip from where it is supplied to the coastal area where 
they are doing work around trying to restore the marshes or 
protect the marshes or do the near-shore skimming and cleanup. 
There, they are going to be more concerned about the actual 
continual, not as volatile, decayed and weathered oil.
    Mr. Moran. If the gentleman would yield, I noticed in the 
paper in this regard that BP and I think Horizon, as well, 
required all their workers to sign that they would not sue them 
for any illness contracted as a result of having to work with 
this material. Are you familiar with that? Is that something 
that is normally done?
    Mr. Perciasepe. I am not familiar with whatever contracts 
BP has with anybody. But I do know that there are OSHA and 
product rules for handling by workers. The people you see that 
are volunteers on the shore are not dealing with dispersants. 
Those are dealt with by people who are trained to handle them. 
But I tell you, the kind of impacts it could have if you 
improperly expose yourself are more of the respiratory and skin 
irritation level.
    Mr. Olver. That sounds like that is very creative on the 
part of BP and Horizon, as well. I am surprised that the 
military didn't use that tactic with Agent Orange some years 
ago.
    And could I just ask, how effective would Joy be?
    Mr. Perciasepe. I can't really tell. I do know that, when 
you are cleaning wildlife, sometimes they use Joy or Dawn.
    Mr. Olver. Fairly mild.
    Mr. Perciasepe. Those are much milder. Although, the 
generic nature of the chemicals are similar, those are much, 
much milder.
    Dr. McNutt. If I could add another perspective to this sub-
sea dispersant issue, I know that BP had made a decision they 
were not going to go forward with the top kill procedure if EPA 
had not allowed the use of dispersant sub-sea. They knew they 
were going to have to pull the RIT tool once they started 
pumping mud, because mud would otherwise come up into the 
container on the ship.
    They had so many ships in a small area on top of the ocean, 
several mud boats, all the boats that were deploying the ROVs. 
With all of the oil that would otherwise come up and all the 
vapors that were going to come off that oil, there was going to 
be such a hazard to the people working there and such a risk 
that they were going to have to cease operations with these 
high pressures from these ships in the middle of the top kill, 
that they decided if EPA had not given permission they would 
not even go forward with the top kill.
    Mr. Moran. That is interesting. That was nowhere to be 
found in the newspaper reports.
    Mr. Olver.
    Mr. Olver. I am done.
    Mr. Moran. Done?
    Mr. Simpson. Mr. Chairman?
    Mr. Moran. Yes?
    Mr. Simpson. Before you close down the hearing, I do want 
to say, every time there is an emergency or a disaster, the 
armchair quarterbacks are numerous out there.
    And I do want to thank you for all the hard work and hours 
that you all have put in and thank the employees that are down 
there working on this, trying to solve this incredible problem 
that we have down there. I know it is tough work, but I 
appreciate it, and all of us do.
    Mr. Moran. Good for you. Appropriate remarks. I think we 
would like to reiterate those.
    We appreciate your informed testimony. We will continue to 
work with you on this. Thank you all very much.
    [Clerk's note.--The Department of the Interior did not 
provide answers to the questions for the record in time for 
printing.]
    [Mr. Chandler inserted the following statement for the 
record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               I N D E X

                              ----------                              
                                                                   Page

              BP Transocean Deepwater Horizon Oil Disaster

Arctic Baseline Assessments......................................    79
Baseline Assessments.............................................    78
BP...............................................................    36
Cleanup Coordination.............................................    73
Coastal Barriers.................................................31, 88
Communication Coordination.......................................    35
Costs of Cleanup.................................................    23
Debarment of BP.................................................91, 108
Deepwater Well Suspension........................................    89
Dispersant Quantity Test..................................105, 107, 108
Dispersant Toxicity.....................................71, 74, 93, 108
Dispersants....................................43, 71, 77, 81, 102, 108
Diversion of DOI Resources.......................................    37
Drilling in the Arctic...........................................40, 41
Endocrine Disruptors.........................................76, 80, 99
Enforcement and Regulations......................................    33
Future Costs.....................................................    89
FWS Environmental Contaminants Program...........................    92
Impact of Natural Resource Losses................................    76
Impact to Gulf Economy...........................................    94
Industry Provided Data--Alternatives.............................   104
Inspections......................................................29, 30
International Regulations........................................27, 34
Liability Cap....................................................    24
Liz Birnbaum.....................................................    25
Management Controls and Accountability...........................    38
Marsh Burns..................................................22, 74, 78
Minerals Management Service Reorganization...............10, 20, 38, 41
Moratoria........................................................    28
NEPA Review......................................................    30
OCS Development...............................................9, 20, 24
Oil and Gas Science at USGS......................................    90
Oil Spill Research...............................................    91
Opening Remarks of Bob Perciasepe................................    43
Opening Remarks of Chairman Obey.................................     5
Opening Remarks of Dr. Marcia McNutt.............................    63
Opening Remarks of Mr. Lewis.....................................     7
Opening Remarks of Tom Strickland................................    55
Opening Statement of Chairman Moran..............................     1
Opening Statement of Mr. Simpson.................................     3
Opening Statement of Secretary Ken Salazar.......................     7
Panel I Questions: Secretary Salazar.............................     1
Panel II Questions: EPA/FWS/USGS.................................    42
Performance Standards............................................    32
Permit Approval Process..........................................    22
Presidential Commission..........................................    25
Protective Booms.................................................26, 82
Questions for the Record.........................................    98
Questions for the Record from Chairman Moran.....................    98
Questions for the Record from Mr. Simpson........................   106
Reforms and Bureaucracy..........................................    28
Reforms of MMS...................................................21, 22
Regulations..................................................31, 32, 79
Remarks of Mr. Moran (EPA/USGS/FWS hearing)......................    42
Response to Oil Spill.........................................8, 36, 37
Royalties........................................................    37
Royalty Waivers..................................................    37
Royalty-in-Kind Program..........................................    21
Science..........................................................    22
Spread of Oil Spill..............................................78, 83
Subsea Dispersants...............................................   103
Supplemental Request....................................26, 71, 75, 106
Supplemental Request--How Will You Spend?........................   106
Water Samples....................................................   102
U.S. Travel Association Insert...................................    95

                                  <all>

</pre></body></html>
